<html>
<title> - WHAT VISITORS CAN EXPECT AT THE CAPITOL VISITORS CENTER: TRANSPORTATION, ACCESS, SECURITY AND VISUALS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
       WHAT VISITORS CAN EXPECT AT THE CAPITOL VISITORS CENTER: 
              TRANSPORTATION, ACCESS, SECURITY AND VISUALS

=======================================================================

                                (110-49)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
35-931                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY, Pennsylvania  Virginia
TIMOTHY J. WALZ, Minnesota           CHARLES W. DENT, Pennsylvania
STEVE COHEN, Tennessee               JOHN R. `RANDY' KUHL, Jr., New 
JAMES L. OBERSTAR, Minnesota         York
  (Ex Officio)                       JOHN L. MICA, Florida
                                       (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Ayers, Stephen T., AIA, Acting Architect of the Capitol and 
  Deputy Architect/Chief Operating Officer, United States 
  Congress.......................................................     5
Moneme, Emeka C., Director, District of Columbia Department of 
  Transportation, Washington, D.C................................    20
Morse, Chief Phillip D., Chief of Police, United States Capitol 
  Police, Washington, D.C., accompanied by Daniel Nichols........    20
Purnell, Marshall E., FAIA, President, The American Institute of 
  Architects, Washington, D.C....................................    32
Shepherd, Leslie L., Chief Architect, General Services 
  Administration, Washington, D.C................................    32
Ungar, Bernard L., Director of Physical Infrastructure, 
  Government Accountability Office, Washington, D.C..............     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    41
Mitchell, Hon. Harry E., of Arizona..............................    42
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    46

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Ayers, Stephen T.................................................    49
Moneme, Emeka....................................................    56
Morse, Phillip D.................................................    61
Purnell, Marshall E..............................................    64
Shepherd, Leslie L...............................................    70

[GRAPHIC] [TIFF OMITTED] T5931.001

[GRAPHIC] [TIFF OMITTED] T5931.002

[GRAPHIC] [TIFF OMITTED] T5931.003

[GRAPHIC] [TIFF OMITTED] T5931.004



  HEARING ON WHAT VISITORS CAN EXPECT AT THE CAPITOL VISITORS CENTER: 
              TRANSPORTATION, ACCESS, SECURITY AND VISUALS

                              ----------                              


                          Friday, June 8, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [Chairwoman of the Subcommittee] presiding.
    Ms. Norton. Good morning and welcome to all our witnesses 
and visitors at today's hearing on What Visitors Can Expect at 
the Capitol Visitors Center: Transportation, Access, Security 
and Visuals.
    This morning, the Subcommittee will hear testimony 
concerning what exactly it is that visitors can expect when 
they arrive at the new section of the Capitol Building that 
will be known as the Capitol Visitors Center and we have 
already started calling the CVC. I visited the CVC this week 
and found an addition of considerable beauty and majesty in 
keeping with the main Capitol Building. Estimates are that the 
CVC is 90 to 95 percent complete, and opening is expected in 
2008.
    In addition, today we will hear about transportation 
security and general access plans that are still being 
developed and refined. It is good to hear about them now 
because we know there is still time, given the schedule date, a 
date we hope is met when the visitors center is to open.
    There has been no oversight of the CVC by an authorizing 
committee and none on the issues of transportation, security 
and access that are of special interest to this Subcommittee 
today. Because our Subcommittee deals with Federal 
construction, we shared jurisdiction with other subcommittee in 
the past.
    Moreover, the new visitors center is a matter of 
considerable interest and concern to the member who represents 
the Nation's Capital. The Congress and the Nation depend on 
this city to be welcoming to constituents and to visitors from 
around the world. The District of Columbia is one of America's 
preeminent tourist destinations, and consequently there is a 
perfect synergy between what the Congress and the District of 
Columbia want when tourists come to the city to visit historic 
sites. As a result, I spend far more time than most members on 
Federal monuments and structures here.
    Our Subcommittee will have a hearing on the Smithsonian 
which is passing through a particularly troubled period and on 
the John F. Kennedy Center on June 15th, 2007, and I will 
shortly introduce a bill for revision and expansion of the 
National Mall.
    The visitors center idea began to take shape long before I 
came to Congress, in 1966, when the former Public Works 
Committee, now the Transportation and Infrastructure Committee 
passed P.L. 89-790. For years, many had remarked about the 
spectacle of members hosting school and other groups on the 
steps of the Capitol or constituents waiting in the heat of the 
summer or the cold of the winter to enter the Capitol as well 
as the lack of meeting space of even space to stand comfortably 
and speak to a group of constituents.
    P.L. 89-790 was a simple page and a half bill that directed 
a ``full and complete investigation and study of sites and 
plans to provide facilities and services for visitors and 
students coming to the Nation's Capitol.''
    The hearing record quotes then Vice President Hubert 
Humphrey who said, ``No city in the world treats its visitors 
with such shabby indifference.'' I assure he was referring to 
the Capital and not the District of Columbia then.
    The record from May, 1966 reflects many ideas about where 
to put the center including the Botanic Gardens, the west front 
of the Capitol or in the vicinity of the Capitol grounds. The 
record is filled with testimony brimming with enthusiasm for 
the concept and the uses of a national visitors center.
    The law was amended several times to accommodate the 
acquisition of land, authorize certain leases and even become 
the vehicle for the rehabilitation of Union Station, and that 
was completed and is beautiful. That was P.L. 97-125.
    The need for the current center continued to grow, but 
nothing moved forward. In 1998, following the first shooting 
death of Capitol police officers in the Nation's history, I 
believed that finally security, not merely convenience, would 
make Congress want to focus on a visitors center.
    Less than a week later, I introduced H.R. 4347, the Jacob 
Joseph Chestnut-John Michael Gibson United States Capitol 
Visitors Center Act of 1998. The bill provided for enhanced 
security within the Capitol grounds and for an appropriate 
place to welcome our constituents, taking into account their 
health and comfort. Included in the bill was a provision, that 
I note with some irony today, requiring the Architect to 
``identify alternatives for construction of the Capitol 
Visitors Center that will reduce the costs of construction.''
    Now, 40 years after the original proposal, we finally are 
on the verge of realizing what was called in 1966 a ``building 
of magnificent opportunity for education in its broadest and 
most attractive sense.''
    This Subcommittee is not much interested in fighting the 
last war over what went wrong with the CVC construction 
program. Speaking for the host city, not to mention most 
members of Congress, we simply want to make sure the new 
structure works. The CVC cannot live on beauty alone. Entirely 
fresh thinking about transportation, access and security are 
necessary.
    How will the transportation plan enable visitors to arrive 
at the center with minimum hassle, fresh and ready to reap the 
benefits of a visit or a tour?
    How will security plans balance the important goals of 
maintaining an open and accessible Capitol while moving 
visitors quickly into the center and ensuring the highest 
security for one of the world's most strategic open facilities?
    Considering the funds, design and craft that have gone into 
the CVC, we are also interested in the management of the 
facility by the Architect of the Capitol, charged with the 
maintenance of the CVC and the main Capitol Building.
    Washington is not only one of the world's most beautiful 
cities; the District of Columbia is the central locus of our 
democracy and those principles and ideas we cherish and others 
to which we aspire.
    Every year visitors come from every State in the Union and 
virtually every country in the world. Individuals and groups 
walk through and around the Capitol to learn firsthand how 
democracy is achieved. The new CVC will itself be a learning 
experience in democracy if it is run with the same grace its 
beauty conveys.
    I want to now ask the Ranking Member if he has an opening 
statement he would like to make.
    Mr. Hayes. Thank you, Madam Chairman. As a part of my 
opening remarks, let me express my gratitude and admiration to 
and for you for your tireless, passionate and, when necessary, 
relentless pursuit on behalf of the citizens of Washington, DC.
    Unfortunately, I don't know all the members of the 
audience, but as an example, I would like to thank Chief Morse. 
With the exception of Chairman, others of us who serve here are 
guests in the city. Please let me extend my thanks and 
gratitude to the Chief, our firefighters and all the other 
wonderful servants that make up the infrastructure of 
Washington, D.C. and make it such a hospital place.
    Your comments are very well made. People come from all over 
this Country and others with excitement and anticipation about 
seeing the Capitol, and I think for the most part they leave 
with enthusiasm and optimism and awe as to what the Founding 
Fathers have done on their behalf.
    So, on behalf of Chairman Mica who unfortunately could not 
be here today and Ranking Member Graves, thank you for letting 
me sit in on your Committee.
    I know Ranking Member Mica has a longstanding interest in 
the Capitol Visitors Center. He followed this project closely 
since he first introduced legislation authorizing construction 
of the visitors center in the early 1990s. In fact, this 
Subcommittee held the first and only legislative hearings in 
1995 and 1998 on the visitors center project prior to its 
authorization.
    Ranking Member has asked me to read his opening statement 
for the record on the Capitol Visitors Center, and I am happy 
to fill in for him today and express his views.
    As the visitors center nears completion, we believe it is 
important for the Committee to reassert its jurisdiction over 
the project. The Capitol Visitors Center is one of the most 
significant projects undertaken by the Office of the Architect 
of the Capitol since the extension to the Capitol and the dome 
were built more than 140 years ago. CVC is the largest addition 
in the history of the Capitol Building and presents a 75 
percent increase in the total size of the Capitol.
    While some have been critical of the expanded costs and 
timeline over the original estimates, there are clear reasons 
for both increases. First, the project scope increased 
dramatically after Capitol Police Officers Chestnut and Gibson 
were killed in the line of duty and then again after the 9/11 
and anthrax attacks. Each incident led to increases in the 
project size and security measures. In fact, there have been 
over 2,000 change orders since the project began.
    Fortunately, the project was revised to incorporate a 
number of important security and life-safety upgrades that will 
protect the public against explosives, chemical and biological 
attack, fire and other hazards. For example, redesigning the 
project to contain rather than spread a chemical or biological 
agent through the Capitol was a complicated and expensive 
undertaking. These modifications to the original design account 
for almost $200 million of additional costs to the 1998 
authorized level.
    Other changes include numerous utility upgrades and the 
decision to finish the House and Senate expansion space now 
instead of finishing them 10 or 15 years later. While this 
decision added to the total cost, it saved tens of millions of 
dollars in the long run. The old adage, you get what you pay 
for, applies to the Capitol Visitors Center, and the American 
people are getting far more than originally proposed and 
considered necessary before the September 11th and anthrax 
attacks.
    With the departure of Alan Hantman, the Architect of the 
Capitol, much of the visitors center senior management team 
were entering a vulnerable phase of the project. CVC is an 
extremely large and complicated project. It is important this 
Committee follow the project closely over the next year.
    Once the CVC is completed, the question will be: How do we 
govern and operate the visitors center? Particularly, this 
hearing was called to look at access, security and facilities 
management as they related to the CVC. It is important to 
determine how the House and Senate will govern the CVC in the 
future so that it is administered for its original purpose, to 
improve the public's experience of the Capitol and American 
democracy.
    Madam Chairman, I do have questions to submit for the 
record and, without further adieu, again thank you Madam Chair 
for holding this hearing.
    Ms. Norton. I thank you, Mr. Hayes, for being such a worthy 
and able acting Ranking Member today.
    I know our Ranking Member had other business, and he is 
very interested in this matter. Indeed, at our first hearing, 
he indicated that the Subcommittee had always had jurisdiction 
here, that there had not been oversight hearings, and he 
indicated a special interest in this very area.
    I would like to welcome the first panel.
    Oh, I am sorry, Mr. Walz. We have another member here, and 
I would like to ask if he has anything he would like to say at 
this time.
    Mr. Walz of Minnesota, thank you.
    I would like then to welcome the first two witnesses on the 
first panel: Stephen Ayers, the Acting Architect of the 
Capitol, who had been Deputy Architect and Chief Operating 
Officer, and Bernard Ungar who is the Director of Physical 
Infrastructure.
    You may proceed, Mr. Ayers.

  TESTIMONY OF STEPHEN T. AYERS, AIA, ACTING ARCHITECT OF THE 
 CAPITOL AND DEPUTY ARCHITECT/CHIEF OPERATING OFFICER, UNITED 
    STATES CONGRESS; BERNARD L. UNGAR, DIRECTOR OF PHYSICAL 
 INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY OFFICE, WASHINGTON, 
                              DC.

    Mr. Ayers. Thank you, Madam Chairwoman, and good morning, 
Congressman Hayes. Thank you for this opportunity to update you 
on the progress of the Capitol Visitors Center project. We 
certainly appreciate the interest you have taken in the 
project, and we appreciate the fact that the Chairwoman 
recently toured the CVC.
    As you know, the Capitol Visitors Center project is quite 
complex and has received much attention since construction 
began in 2002. When you are building a 580,000 square foot 
facility underground, adjacent to the United States Capitol, it 
is difficult to ignore. However, when it is completed, the CVC 
will provide a place for people to learn about our Capitol and 
our government and the Congress, provide a secure environment 
to welcome visitors and protect the Capitol Building and the 
many people that work and visit here every day.
    When I assumed the duties of Acting Architect in February, 
construction was 88 percent complete and numerous critical path 
milestones were missed monthly. One of my first actions was to 
direct the project team to reevaluate the project schedule to 
ensure that it was realistic and to include risk and 
uncertainty.
    By April, the project team had updated the master project 
schedule to incorporate these risks and uncertainties, 
particularly with regard to the time needed to integrate the 
fire alarm, life-safety and security systems into the building 
systems in general. It is important to note that since the 
completion of this schedule reassessment, for the third month 
in a row, all critical path activities have been met as 
scheduled. This is the first time in the history of this 
project that that has happened.
    With construction now 95 percent compete and $4.5 million 
of work put in place every month, major construction activities 
will start winding down this summer. The tasks now left to do 
largely involve the aesthetics and functionality of the space 
such as painting and installation of carpet, lighting fixtures 
and hand railings as well as the tie-in of all the building 
systems.
    The final and most complex challenges ahead are the 
acceptance testing of the fire, security and life-safety 
systems and commissioning of the sophisticated building 
systems. The final testing of the fire and life-safety systems 
is scheduled to begin this fall. While risks remain, our 
expectation continues to be that a certificate of occupancy can 
be issued in June of 2008.
    With regard to the commissioning of building systems, air 
balancing of all of the air handlers must be complete before 
the fire marshal can commence testing of the smoke control 
systems. At this time, all but one of the CVC's 23 air handling 
units are available for operation. Rough balancing has been 
completed in several of the public areas including the great 
hall, the food service area, exhibition gallery and orientation 
theaters, and final balancing will continue after the 
contractor's smoke testing.
    Madam Chairwoman, with regard to the day to day operation 
of the CVC, when the House and Senate leadership assigned the 
management of the CVC operations and administration to the 
Architect of the Capitol in mid-May, we immediately stood up a 
support team that has begun working to transition the CVC from 
a construction project to a fully staffed and equipped visitor 
services operation. With our consulting team from JM Zell 
Partners, we are working on areas such as administration, food 
service, gift shops, information technology and exhibits.
    One of our top priorities is to recruit a Chief Executive 
Officer for Visitor Services. Once this person is hired, other 
staffing of CVC operations can begin. I am pleased to report 
that the interview process for the CEO of Visitor Services has 
begun, and we have already begun to hire staff on the facility 
maintenance side in the Capitol Superintendent's Office. In 
addition, the CVC food service contract was awarded, effective 
May 31st of this year.
    Other operational issues that we will be working with 
Congressional leadership on include an advanced reservation 
system, developing a CVC web site, stocking and staffing gift 
shops and reaching out to the community, tour industry, 
business groups with a public information campaign, just to 
name a few.
    As I mentioned earlier, most of the remaining work on the 
construction site involves installation of finished materials 
throughout the site. Light fixture installation has begun in 
the great hall; carpet installation continues in the House and 
Senate expansion spaces; exhibit case components are being 
placed inside the exhibition hall; and millwork is nearly 
complete on both levels of the Congressional auditorium.
    In addition, in the House expansion space, the stone work 
in the hearing room is progressing well and should be done this 
month. Work in the radio and TV gallery space is expected to be 
finished in July. The ongoing carpet installation in the House 
Intelligence Committee space marks the near completion of that 
area as well.
    Outside, the 12-foot tall bronze entrance doors have been 
installed in the CVC's north and south entrances. The cab 
components for the exterior elevators are being installed on 
the east front, and the grounds are being readied for sod and 
other plantings following the installation of an irrigation 
system.
    Madam Chairwoman, we are committed to getting the CVC 
project finished as quickly as possible. This is my top 
priority and the top priority for this organization. At this 
time, we are on track to meet our scheduled June 2008 date to 
receive a certificate of occupancy. Nonetheless, we recognize 
that the project continues to face risks and uncertainties and 
are instituting additional steps to increase our focus on 
meeting our scheduled completion dates. We will continue to 
closely monitor the progress of the building systems 
commissioning and the fire and life-safety system testing to 
mitigate potential delays.
    We look forward to working with Congressional leadership as 
we begin staffing the operations and effectively and seamlessly 
working to transition the CVC from a construction project to a 
fully equipped visitor services operation.
    That concludes my statement. I would be happy to answer any 
questions you may have.
    Ms. Norton. Thank you very much for that testimony, Mr. 
Ayers.
    Mr. Ungar, I know you are here to assist Mr. Ayers. Is 
there anything you would like to say concerning the project at 
this time?
    Mr. Ungar. Madam Chair, I would just like to echo Mr. 
Ayers' statement that we are on track right now to meet our 
current completion dates. I think it is going to be a challenge 
for us. It is an uphill battle but so far, so good. We are 
going to be focusing a lot of attention from this point forward 
on meeting the schedule dates, and we have a series of actions 
underway that are aimed toward that.
    Ms. Norton. Both of you have mentioned completion dates. In 
your testimony, Mr. Ayers, it is interesting you left out the 
words, I think, June, 2008. You said we are on track to meet 
our completion date, but the testimony says June, 2008. Is that 
the date that you are committed to opening the Capitol Visitors 
Center?
    Mr. Ayers. Madam Chairwoman, that is the date we are 
committed to issuing a certificate of occupancy. After we issue 
that certificate of occupancy, we expect there will be two to 
three months of ramp-up period and training period as the 
operations team shakes out the bugs in the day to day operation 
of the space which will enable an opening in September, 2008. 
That opening date is really a Congressional decision, but we 
think it will be available for opening in September, 2008.
    Ms. Norton. I think you can depend on Congress not to delay 
the date you would like it open, Mr. Ayers.
    So you are saying September, 2008 is when we can expect the 
center to be prepared to receive the first visitors would 
Congress agree?
    Mr. Ayers. Correct, yes ma'am.
    Ms. Norton. Now who issues the certificate of occupancy?
    Mr. Ayers. The Architect of the Capitol's fire marshal does 
that.
    Ms. Norton. The fire marshal for the Architect of the 
Capitol, is that the fire marshal only for the Architect for 
the Capitol? He works entirely in the Capitol?
    Mr. Ayers. In the Capitol Complex, yes ma'am.
    Ms. Norton. Your testimony indicates something of a new day 
because you talk about meeting critical path schedules. You 
have already done so for fire, life-safety, security systems.
    By the way, Mr. Ayers, I note that you are not only an 
architect but you have an MBA. I don't know if that has been 
relevant in all of this. I know well of Mr. Ungar's long work 
in the Federal Government on management issues and on getting 
thing done. But I would like to know why the CVC is meeting 
critical schedule dates now and not in the past.
    Mr. Ayers. Well, I think, Madam Chairwoman, that in 
November of this year, the Architect developed an action plan 
to refocus efforts of the Architect staff as well as our 
construction management.
    Ms. Norton. Hadn't there been an action plan all along?
    Mr. Ayers. No, ma'am. That action plan was developed in 
November, and really I think the sustained implementation of 
that action plan.
    Ms. Norton. How do you build something? Pardon my 
ignorance, if it is not an action plan, what is it that makes 
people know they have to meet certain critical dates?
    Mr. Ayers. Well, I think this event in November was a 
refocus and a recommitment to schedule, and we have applied 
that consistent pressure.
    Ms. Norton. How was this done?
    I am just trying to find out the before and after. If there 
was not an action plan before, but everyone had believed that 
certain things would take place on certain dates, what is the 
difference between what is happening now and what happened 
before?
    Mr. Ayers. Bernie?
    Mr. Ungar. Madam Chairwoman, let me explain a little bit, a 
little history about myself because I have to wear two hats 
here. Up until two weeks ago, I worked for the GAO, and I had 
responsibility for helping to monitor and oversee the project. 
About two weeks, I shifted hats.
    Ms. Norton. Now say that again, so that is clear. You had 
responsibility for?
    Mr. Ungar. Assisting GAO in helping Congress monitor and 
oversee.
    Ms. Norton. In short, Congress put the GAO on this project 
because it was so concerned about the failure to meet critical 
dates. You were the head man in charge of monitoring, and they 
decided that they needed the monitor to help them do it?
    Mr. Ungar. Well, unfortunately, AOC ran into a little bit 
of a problem. The previous project executive, who had been here 
for about three years, retired. The person who was helping him 
at AOC took over, and unfortunately he had some health 
problems. So AOC was in a little bit of a bind.
    I had been involved in this project, helping to oversee it 
for a decade or almost a decade anyway, so I was asked to come 
and assist Mr. Ayers and the rest of the team just recently.
    But what I was going to explain was that in the history of 
the project, it had been consistently experiencing a number of 
schedule slippages, schedule extensions since the project 
construction began for a variety of reasons. One of those 
reasons Mr. Ayers alluded to was the project consistently had 
in place what we would call either overly optimistic or 
unrealistic schedules for a number of reasons and, at least in 
GAO's view, there hadn't been sufficient emphasis on schedule 
achievement.
    There are a number of other factors that were involved in 
resulting in some of the delays, many of which were 
noncontrollable.
    Ms. Norton. Isn't it true that there were stop orders when 
members of Congress or others in their names asked for 
additions or changes in the CVC for which the AOC would not 
have been responsible?
    Mr. Ungar. Somewhat; not quite exactly as you mention, 
Madam Chairwoman. What happened was when the project was 
originally designed, at least in the terms of the 1999 design, 
efforts were starting to move forward to get the construction 
documents ready. As that was happening, we had the unfortunate 
incidents take place in 2001 with the 9/11 and then following 
that, the anthrax. As a result of those incidents while the 
construction documents and so forth were being done, Congress 
did ask for a number of changes to the facility.
    Ms. Norton. So were the dates changed? When Congress asked 
for these changes which had not been scheduled the dates were 
set, were new action plans of one kind or another put in place 
to achieve those changes with a later date?
    Mr. Ungar. Unfortunately, not.
    What happened back in that time period, the major changes 
came up. There was a target date at that point in time of 
having the facility ready for the inauguration in 2005. I think 
one of the biggest lessons learned. I think everybody would 
agree now. It would have been much more helpful if everybody 
would have stood up at that point in time and said, we are 
happy to make these changes, but we can't do it in the January, 
2000 timeframe.
    Unfortunately, that recognition didn't happen for a long 
period of time. In fact, there were a number of factors that 
delayed the project, and it wasn't until Mr. Ayers came on 
board as the Acting Architect that he decided that the schedule 
would incorporate what we call risks and uncertainties to help 
account for some of these things that have been.
    Ms. Norton. In construction work today, incentive payments 
are often used. Perhaps people read that I guess it was the Bay 
Bridge was just opened in no time flat because of an incentive 
payment. I believe incentive payments are probably being used 
for the new Nationals baseball stadium. Anybody in business 
figures out, particularly if you must get something done on 
time, that there are ways to get it done.
    Was any kind of incentive payment device every used or 
considered for the CVC?
    Mr. Ayers. Yes, madam Chairwoman. There are incentives 
built into the CVC contract, and that has been a new concept 
for us.
    Ms. Norton. I take it nobody has been able to take a 
payment as a result of this incentive to finish on time.
    Mr. Ayers. Well, they have. Finishing on time and on 
schedule is only one part of the incentive. The incentive 
package is built upon quality, schedule, cost, their adherence 
to small business concerns as well as their closeout. So there 
are seven different incentive evaluation periods throughout the 
contract.
    Ms. Norton. Is that incentive to finish in September--what 
is that date--2008?
    Mr. Ayers. Go ahead, Bernie.
    Mr. Ungar. Madam Chair, no, there is not right now. We have 
a very difficult situation. The official contract completion 
date was September of 2006 which is long past unfortunately, 
and we are in the process now of trying to work with our major 
contractor for Sequence 2 to see if we can come up with a firm 
contract completion date that reflects the time periods that 
Mr. Ayers spoke about.
    October of 2006, we were trying to shoot for substantial 
completion and final completion in June of 2008. Also, we are 
considering whether an incentive would be appropriate at this 
point in time, but we need to work that out.
    Ms. Norton. Because it may be too late for an incentive?
    Mr. Ungar. Well, it may be. We are trying to work with our 
procurement team and our legal team to see whether or not at 
this point in time that would be the most appropriate way to 
go.
    Ms. Norton. You say that there have been incentive 
payments, and you say, yes, they have met something and they 
have been paid.
    I mean I have to ask you. Do you think that the kind of 
incentive that has been used at the Nationals, albeit divided 
into various parts, taking in consideration unanticipated 
matters, was that kind of incentive payment used or promised up 
front and would it have been useful if it was not promised up 
front?
    Mr. Ayers. Certainly, incentives are useful, I think.
    Ms. Norton. I am talking about this Capitol Visitors Center 
now. I know they are useful. I am saying on this center, was 
there an overall incentive payment used such as being used in 
other complicated facilities and, if not, would that have been 
a useful thing to do?
    Mr. Ayers. There were incentive payments used on this 
particular contract.
    Ms. Norton. I am asking to complete the job. You have got a 
general contractor.
    I am asking when you are doing the Bay Bridge and the city 
says it has just got to happen or the Nationals have to open on 
time because tickets are being sold, then there is an incentive 
payment, and in the beginning you say, hey, fellas, here it is. 
You compete on the basis of it. You compete for the job on the 
basis of it. Of course, you get it at the end if you achieve 
the result promised in the contract.
    That is what I am talking about. I am not talking about 
bits and pieces of incentives, and I appreciate that they have 
been offered. I am trying to figure out if we have a new 
center, if we have gone through this, and I don't think we will 
go through anything quite this large again. I am trying to 
figure out what would have been the better way to do it. I am 
trying to apply modern construction devices and incentives to 
this job, and so I am talking about the incentive I am talking 
about.
    I am not talking about generic incentives.
    Mr. Ungar?
    Mr. Ungar. Yes, ma'am. You are right. The problem that we 
had----
    Ms. Norton. Please put on your GAO hat for a moment.
    Mr. Ungar. I am. Yes, I will put on both hats here. It is a 
little tough.
    Looking back, clearly the incentive that Mr. Ayers talked 
about was what they call a balanced scorecard. It involves 
several different factors that we were striving, the AOC was 
striving to achieve. Unfortunately, the schedule incentive was 
not given sufficient emphasis in my view and the amount or the 
percent of the incentive.
    Ms. Norton. What was not? I am sorry.
    Mr. Ungar. The way the incentive was worded, it was tied to 
certain general factors about having a schedule and following 
up on the schedule. It really wasn't zeroed in on a specific 
completion date.
    Ms. Norton. Deadline dates.
    Mr. Ungar. A deadline date. Now, the problem, even if it 
had been, first of all, I think it would have been better if it 
had been. But even if it had been, there have been so many 
changes to the project that weren't the contractor's fault. It 
would have been very tough to have used that. But I think from 
this point forward, if something could be worked out, it would 
be much more effective.
    The other aspect was the total amount of money was $1.2 
million. In relation to the whole contract amount, it wasn't a 
huge amount, but the contractor nevertheless tells us that as a 
symbol of being able to say that yes, the contractor received 
the award fee, it was an incentive.
    Ms. Norton. I appreciate what you are saying. Precisely 
because you are dealing within an appropriation, the incentive 
might have been an interesting idea, and I understand precisely 
what you are saying about the changes that occurred. But it 
must be said that the Architect has been drawn and quartered, 
and very little has come out into the public sphere about how 
this project was structured from the beginning and about the 
unanticipated changes that had to be made.
    An incentive payment up front which said, okay, now. I 
learned, for example, that there were things under the Capitol 
nobody expected because nobody has been under there in a 
zillion years. Now we have gotten this unexpected and that 
unexpected.
    If the Architect's Office is entirely forthcoming, does not 
wait until appropriation time and if there had been oversight, 
if I may so, by this Committee as there had been in the past--
this is the Committee that processed all of the convention 
center plans in the past--then I think those things would have 
been caught. But the poor Architect had to wait until the 
appropriation time or until the appropriator set a hearing 
because that was the only oversight, and of course, thank 
goodness for them.
    But then, of course, it was all critical time, and we 
didn't quite understand whether or not this was simply 
incompetence or malfeasance, indeed to hear the way it is 
described on the part of the Architect of the Capitol, or if 
the structuring of the job in the beginning was faulty. 
Everybody was going under a capitol that nobody had been under 
since the thing was built, and I don't think anybody had been 
under the grounds where the visitors center is coming into.
    And so, we see a lot of ``gotcha'' kind of hearings which 
are very easy to do on a construction project. I say that as 
the member who oversees courts and the rest. Some of that is 
deserved, but I don't think it is entirely fair if one 
understands what has taken place over time and who indeed asked 
for the changes.
    Where I fault the Architect's Office is in transparency. 
You know if there is not a hearing being called, you don't have 
to wait for a hearing to be called.
    I remember when I was in the chair of an agency of the 
Federal Government. The first thing I did was to ask for an 
oversight hearing. I think if agencies of the government are in 
the habit of coming forward and saying there is some 
information that staff needs or that the public needs rather 
than waiting for a hearing to be called, asking for a hearing, 
I think we would be in better shape.
    Now, I have gone down this week and I was very impressed 
with what I saw. It is very elaborate. Have there been any 
complaints about how elaborate it is?
    Mr. Ayers. No, ma'am. I have not heard any complaints.
    Ms. Norton. Well, the reason I think that there hasn't been 
is that you have got to have a visitors center in keeping with 
the majesty of the Capitol itself. You can't just have 
something down there for people to run through on their way to 
the Capitol. So I think it has been done with great taste, and 
I think that a lot of the criticism will go away, albeit if 
much of it deserved, once it is open.
    Now, I note that the center has 580,000 square feet which 
is considerably larger than my bill contemplated, I must say. 
What got the center to be so large and do you think that can be 
justified?
    Mr. Ayers. Well, certainly, I think as you pointed out in 
your opening remarks that there was a design that was already 
completed in the early to mid-1990s, after the two officers 
were shot in 1998. Then in 1999, the first appropriation was 
received, and as part of that appropriation, there was a 
revalidation study of the previous design work that led up to 
that. That was the first order of business.
    In that revalidation study, the Architect and our designers 
worked with the Capitol Preservation Commission to update the 
design, and as part of that process and in consultation with 
the Capitol Preservation Commission, that is how the facility 
became 580,000 square feet.
    Ms. Norton. Did you plan all along to have the hearing 
room, for example, and the meeting rooms, Mr. Ungar?
    Mr. Ungar. Ma'am, I think the basic structure of the 
facility was planned. The House and Senate expansion spaces, 
the shells for that, the basic excavation and the shell for the 
facility were part of the original 1999 design.
    Ms. Norton. What was part? I am sorry.
    Mr. Ungar. The basic 580,000 were part of the 1999 design, 
and the House and Senate, the shells, the digging, the 
excavation and the walls and the roof, that was part of the 
basic 1999 design. That was, I believe, added in 1999.
    The hearing room, as I recall, came afterward, the request 
on the House side.
    Ms. Norton. That was a request from the Congress.
    Mr. Ungar. Yes, the hearing room, correct. I don't believe 
it was originally slated to be hearing room.
    Ms. Norton. I am not complaining. We don't have enough 
hearing rooms. But that wasn't included in the original cost or 
the original space.
    Mr. Ungar. Right.
    Ms. Norton. Now, the auditorium was included.
    Mr. Ungar. Yes, that was in the $265 million, correct.
    Ms. Norton. And the meeting rooms were all included?
    Mr. Ungar. Yes.
    Ms. Norton. What has been added is only the big hearing 
room?
    Mr. Ungar. Well, there had been some others going back from 
1995, the design. The 1999 design added to the size. For 
example, the exhibit hall was originally about 3,000 square 
feet, and now it is roughly 16,000 square feet.
    So what happened in 1999, there was an assessment or at 
least a reassessment of the security aspects of the facility 
and the aspects of the facility that were supposed to provide 
an enhanced visitor experiences and comfort and education. So, 
as a result of all of those factors, the design changed in 1999 
and some things were added.
    Mr. Ayers. I think the tunnel to the Library of Congress 
was added, the 170,000 square feet.
    Ms. Norton. The tunnel to the Library of Congress in 
particular?
    Mr. Ungar. Yes.
    Mr. Ayers. Yes, ma'am.
    Ms. Norton. As opposed to is there a tunnel to the Congress 
itself? Oh, yes, I guess that is a tunnel to the Capitol.
    Mr. Ayers. Yes, ma'am.
    Ms. Norton. Tell me about why the tunnel to the Library of 
congress was added.
    Mr. Ayers. That was added at the request of the Congress. 
Similarly, the 170,000 square feet of expansion space on the 
House and Senate side was added.
    Ms. Norton. Expansion space, meaning what? I am sorry.
    Mr. Ayers. Those are the meeting rooms.
    Ms. Norton. The meeting rooms, all right.
    Mr. Ayers. Yes.
    Mr. Ungar. The House and Senate.
    Mr. Ayers. The House and Senate meeting rooms.
    Ms. Norton. For both sides.
    Mr. Ayers. Yes.
    Ms. Norton. That was added, and Congress asked for that 
afterwards, and Congress asked for a tunnel to the Library of 
Congress.
    Mr. Ayers. Right.
    Ms. Norton. Of course, tunneling is very expensive.
    Mr. Ayers. Correct.
    Ms. Norton. So it would be interesting, and some day 
somebody is going to total up how much of the expense was due 
to requests from Congress and how much of the expense was due 
to the construction itself.
    Mr. Ungar. We can tell you that now, Madam Chair, of the 
estimated cost of the project, currently. The current estimated 
cost to complete the project which has not been updated for the 
last several months, but the current estimated cost by GAO is 
around $592 million. That was made in November of 2006, so it 
hasn't been updated. But of that cost, half was due to 
Congressionally-directed scope changes.
    Ms. Norton. You are saying it doubled because of?
    Mr. Ungar. No, it didn't; half.
    Ms. Norton. Oh, half of the cost.
    Mr. Ungar. Half of the increase.
    Ms. Norton. Half of the increase, okay.
    Mr. Ungar. Right, and there are other factors accounting 
for the remainder of it.
    Ms. Norton. That deserves analysis as to what it did if 
only because whatever is the next project, we will have learned 
from this mammoth one.
    Let me move on to two more issues. One is the Chief 
Executive Officer, and the other is the all important 
transportation and security issue.
    Now, the reason I move to Chief Executive Officer is 
because it depends now on how it operates. Members of Congress 
will glorify in the building, but they will be particularly 
interested in are there sufficient guides to get people through 
the building, as I don't think there are today. Is there 
somebody in charge who knows how to run a visitors center in 
particular?
    You say that you have begun interviewing. What kind of 
skills are you looking for in the Chief?
    This is a statutory provision that says that there shall be 
a Chief Executive Officer responsible for the operation and 
management of the Capitol Visitors Center. So the Congress 
foresaw that you need a heavyweight to make sure this thing 
runs smoothly.
    Mr. Ayers. Yes, ma'am, and we are looking for someone that 
has a great deal of experience in visitor service and museum 
type business at the high volume level, sort of 10,000 visitors 
per day, that kind of experience.
    Ms. Norton. Is that what you expect for our visitors 
center?
    Mr. Ayers. It would be more than that.
    Ms. Norton. What do you expect daily on the average for our 
Capitol Visitors Center?
    Mr. Ayers. It could be 15,000 a day.
    Ms. Norton. It will probably attract more than usual 
because it is new.
    Mr. Ayers. Yes, ma'am. We do expect our ongoing attendance 
to be about three million a year. I think visitors to the 
Capitol today are about a million and a half a year. We expect 
that with the visitors center to go to three million a year and 
first year attendance to possibly be even more than that.
    So in terms of the skills we are looking for, certainly 
someone that has high volume visitor experience, someone that 
has managed restaurants and catering business and gift shops 
and retail centers.
    Ms. Norton. You will have a gift shop there.
    Mr. Ayers. Yes, ma'am. We will have two gift shops.
    Ms. Norton. Rather than upstairs where we have that cute 
little thing we have upstairs now.
    Mr. Ayers. Yes, ma'am.
    Ms. Norton. Is that going to disappear by the way, the one 
upstairs, or will there still be something upstairs?
    Mr. Ayers. The one upstairs in the crypt is operated by the 
Capitol Historical Society.
    Ms. Norton. I see.
    Mr. Ayers. That will go away.
    As well, of course, we are looking for a great 
communicator.
    Ms. Norton. Will the Capitol Historical Society operate the 
one in the visitors center?
    Mr. Ayers. No, ma'am. That will be operated by the 
Architect of the Capitol.
    Finally, we are looking for a great communicator, someone 
that can work with members and work with visitors. A visionary 
leader and a motivator, I think, are some of the basic skills 
of this person.
    Ms. Norton. Who will make the final selection?
    Mr. Ayers. The Architect of the Capitol will make the 
selection. We certainly won't do that in a vacuum, and we will 
coordinate with oversight and the Capitol Preservation 
Commission in that final selection, but ultimately the decision 
rests with the Architect.
    Ms. Norton. When I visited, I saw where there will be a 
restaurant and the like, and I was assured that to keep staff 
from converting it into a McDonald's that there would be no 
takeout because they would be running down to get takeout, and 
I appreciate that. As much as we need more food service here, I 
think that is appropriate.
    But I had understood that you are awarding the food service 
contract to Restaurant Associates. Is that true and was that 
done through a competitive process?
    Mr. Ayers. Yes, ma'am, that is true. We have awarded that 
contract to that company.
    Ms. Norton. Was it a competitive process?
    Mr. Ayers. Yes, ma'am, it was competitive.
    Ms. Norton. They won it based on quality as well as the 
other?
    Mr. Ayers. Quality.
    Ms. Norton. This is a sit-down restaurant, right?
    Mr. Ayers. Yes, ma'am, it is. There were extensive 
proposals by several companies. Restaurant Associates offered 
the best value to the Government. There was extensive food 
tasting at all of our vendors, and overall they offered the 
best value for the Government.
    Ms. Norton. Is there any small or disadvantaged business 
component in this contract?
    Mr. Ayers. No, ma'am, there is not.
    Ms. Norton. What is the minority participation, 
disadvantaged business participation and participation on the 
construction project?
    Mr. Ayers. I would have to answer that for the record. I 
don't know the statistics on that.
    Ms. Norton. You don't have any idea how many minority 
workers have helped to build this project?
    Mr. Ayers. No, ma'am, I don't.
    Ms. Norton. Well, I can't believe then that you don't know. 
That ought to be off the top of your head, Mr. Ayers.
    Mr. Ungar?
    Mr. Ungar. Ma'am, I don't know the number of actual 
workers, but we can get for you the number of subcontractors. 
That is a requirement of the major general contract for that 
contractor to affirmatively engage minority contractors and 
others.
    Ms. Norton. I appreciate that. So that would include 
disadvantage business contractors as well as others. Please, 
within 30 days, have that information.
    Mr. Wynn and I, Mr. Al Wynn and I from Maryland met 
extensively with the Architect just as his work was beginning 
because this is a region, a huge region with abundant black and 
Hispanic construction workers. Mr. Wynn was equally interested 
in the small business component. I was interested perhaps more 
in the construction component if I were to put it at a slightly 
higher level because that is where we were then. We were in 
construction.
    We haven't met since those early meetings, and so it is a 
matter of some considerable importance. If I may so, it is a 
matter of sentimental importance to some of us. The Capitol 
itself was built with slave labor, slaves hired out by their 
masters who then, of course, received the monetary benefit, by 
free black labor and, of course, by white immigrants to this 
city. It was, in a real sense, built with the diversity of 
America as it was then.
    The Subcommittee and the full Committee would be most 
interested in knowing, and we need to know now what the 
minority contracting and minority participation in construction 
was.
    I must say that when I went downstairs, I saw a fair number 
of minority workers, and I was pleased to see that. That is why 
I am surprised that you can come to a hearing where you knew I 
was Chair without some information on that. So I would like to 
have that information within 30 days.
    Mr. Ungar. Yes, ma'am.
    Ms. Norton. Let me move to transportation and security 
which, of course, are somewhat intertwined. The Sergeant at 
Arms and the Chief of Police came to see me recently to brief 
me on how buses are going down near the Botanic Gardens around 
that circle where visitors come. No visitors would be on First 
Street.
    You will not find me asking for visitors on First Street. 
That is totally inappropriate. First Street borders one of the 
District's most graceful residential communities. We would 
destroy it by making it a thoroughfare as we don't now for 
these buses, but these buses lurk and they do get in that area. 
You are trying to deal with a very tough situation.
    What analysis has been done to determine how the 
transportation can be done without seriously inconveniencing 
visitors who will not be able to get right off of their bus and 
go into the visitors center which fronts First Street?
    Mr. Ayers. You are absolutely right. I echo that it has to 
be seamless and graceful and quick. Otherwise, it just won't 
work. We are working with our consultants now, a transportation 
consultant, working with the Capitol Preservation Commission, 
the Sergeant at Arms and the police right now, looking at all 
of those alternatives.
    Ms. Norton. How close are we to getting a plan?
    Mr. Ayers. I think we are a month, probably two, away from 
finalizing the plan.
    Ms. Norton. Will there be a hearing and discussion with the 
public?
    Mr. Ayers. Interesting, I think, many years ago as this 
project initially started, there were community meetings and 
meetings with the ANCs and CHAMPS and Capitol Hill Historical 
Society. I think for the last three or four years, we haven't 
had that. I think it is time to do that again as we head 
towards operations.
    Ms. Norton. I will facilitate that, Mr. Ayers. If you would 
work with me, I will facilitate that rather than have people 
scream after the fact.
    We find that the people who live here, and by the way there 
will be people who are very much interested in government. 
There are people who are in the transportation industry. There 
will be people who deal with tourists and visitors to the city. 
What you will find is that, at least for the residents of the 
District of Columbia, they do understand the difference in 
jurisdictions, that they can't dictate to the Federal 
Government or the Congress of the United States.
    But open and public hearings where people get an 
opportunity to testify, and you have to limit them because you 
will get not testimony but testimonials as they go on for a 
long time, and you have to say what it is you want to hear. If 
what we want to hear are suggestions, you will find that people 
who live in the greater region often have suggestions that none 
of us would ever have thought about. So if you would work with 
me, I would arrange such a public hearing.
    Mr. Ayers. I am happy to do that.
    Ms. Norton. Are you working with the security officials 
directly?
    Is there a group that decides this matter or is security 
over here and you over there, Mr. Ayers?
    Mr. Ayers. Certainly, they are not disparate. You know we 
have a great partnership with the Capitol Police. Chief Morse 
has made that a priority for himself and his entire command 
staff. I have as well. We are great partners in virtually 
everything we collectively do.
    Of course, I sit on the Police Board with the two Sergeants 
at Arms which forces that integration of both the Architect and 
the police work. So we are hand in glove in virtually 
everything we do.
    In terms of the transportation plan specifically, I think 
ultimately that is approved, with input from the Police Board, 
by the Capitol Preservation Commission.
    Ms. Norton. Yes, and I do admire the fact that the Police 
Board has on it the Architect and the Sergeant at Arms and, of 
course, our police.
    I do want to emphasize how important it is, and this 
Committee will be very, very concerned and interested as to 
whether or not the security plan is done in a group or off with 
the security officials.
    What is wrong with security in the District of Columbia is 
the fact that you are all now, security officials, if my good 
friends on the Capitol Police will forgive me, you were cops 
before 9/11. The fact is we converted people who were safety 
officials, who were safety officers into something that is far 
larger and very different, and nobody has had to do the kind of 
security we have to do in this Country today. This has been an 
open society. We have made huge mistakes.
    I have had to fight a one-woman battle just to keep the 
District of Columbia open, and sometimes it gets ugly. I had to 
threaten to go to the Floor of the House in order to get the 
Congress open for visitors after the anthrax scare because 
everybody was so timid about letting people in. The anthrax 
scare wasn't even in the Capitol. Letting people in the Capitol 
and finally we got it open.
    But it says that the first instinct, understandably, of a 
security official is to think about his mission. This Capitol 
has to be open and secure. No one must feel when they go in, 
the way they feel now. Only now, only recently have we been 
able to get the planters in place, and it still feels like an 
armed fortress frankly. You have got to feel that you are still 
in the United States of America where you have an open society.
    I have a bill that I have continuously introduced. I 
introduced it after Pennsylvania Avenue was closed for a 
commission to be appointed by the President to have, sitting 
around the same table, security officials, military officials, 
architects, lawyers, engineers, artists, people who live in the 
great society itself and together outline a broad sense of how 
security would work in an open society. I think it is most 
unfair to say to police, hey, here is the security part of 
this; deal with it.
    The frivolous closings of Independence Avenue that I 
screamed and yelled about, now I am pleased to see we no longer 
stop people going to the Capitol, creating huge backlogs of 
people to make sure that we are looking at something as if this 
were the old German pre-Soviet breakup where you had to pass 
through some check as if somehow if you saw the check was there 
and you wanted to do something, you wouldn't find your way 
around the checkpoint.
    That was police officials trying to learn how to be 
security officials, and part of it was that they were left by 
themselves. The people on our side, including the Congress, 
mostly elected officials who are in charge of the open society 
were not at the same table with the security officials. We made 
some terrible blunders, got people real mad about security.
    We are maturing now about security, and I ask particularly 
that any security plan be the work of the entire group, not 
only the officers whose job it is to have tunnel vision. The 
only way to get out of that and to have a balance with security 
and openness is to have everybody at the table. Nobody is going 
to compromise security for this building. What does get 
compromised easily is openness to this building, and that would 
be an outrage for the new visitors center.
    I would like to ask about the donations. Mr. Ayers, you 
mentioned $65 million in private donations for the center. Is 
this program still in effect? Are they being received now? Who 
administers it? What is the use of these funds, if so?
    Mr. Ayers. The Capitol Preservation Fund is still in 
existence. They are not actively seeking donations, but 
donations can be made to the Capitol Preservation Fund, should 
the Capitol Preservation Commission want to accept them. So the 
fund is still operating.
    Ms. Norton. Have the funds been used at all to offset the 
cost the taxpayers have incurred?
    Mr. Ayers. Yes, ma'am.
    Ms. Norton. Mr. Ungar wants to answer that question.
    Mr. Ayers. Sure.
    Mr. Ungar. Yes, ma'am. The first $65 million has been 
transferred from the fund to the AOC and has been used in the 
construction of the facility as intended.
    Ms. Norton. That is our good news.
    Along with the full Chairman of the Committee, I have 
worked on intermodal transportation ideas for Union Station so 
the buses would have some place to go. After we are finished 
with you, we are going to have to find out where the buses that 
can't come on First Street are supposed to then go disappear. 
Then they come back. There are no special effects here.
    One of the things we worked on was the air rights over 
Union Station and transportation or intermodal facility that 
would be there. Do you have any knowledge about the intermodal 
system? Have you worked with anybody on that issue?
    Mr. Ayers. We have certainly talked with the folks at Union 
Station, and they do have recently finished construction in 
that area for bus parking for up to 85 buses, so that is one of 
the alternatives we are currently exploring in our 
transportation and bus management plan. We work with them. We 
know the Circulator bus routes and are working with all of 
those entities to come up with the best plan.
    Ms. Norton. That facility will probably require some public 
funding. And so we are going to have to move, now that we have 
the air rights issue settled, to how indeed we get the 
facility, how it is constructed, what mix, if that is what it 
is to be, of private and public funds because one of my major 
concerns here is that with the increase that you testified to, 
Mr. Ayers, of people coming just to see the visitors center if 
nothing else, the bus traffic is going to increase. With all 
your hard work to make sure that they have some place to go, 
there will still be a problem.
    One final question on that, you are going to leave people 
off. As it now stands, you are going to leave people off down 
the hill. Now if you are a race walker like me, you just regard 
this as another opportunity for exercise, but besides the 
elderly, there will be people with children and the rest. Are 
you really prepared to handle the increase in traffic you are 
about to have at that facility down on the hill where you wait 
in line?
    Now you are still having to wait in line to get into the 
visitors center? Is that how it is going to be?
    Mr. Ayers. Well, I don't think. First, I don't think the 
decision to drop off people at that location has been made. On 
this plan, there are a variety of alternatives. You could drop 
them off at Union Station or other places and have a Circulator 
bus or a shuttle bus shuttle people back and forth to the 
visitors center. But that basic decision of dropping them off 
on First Street West has really not been made.
    Ms. Norton. The Circulator will be able to come down First 
Street?
    Mr. Ayers. I don't think that decision has been made yet.
    Ms. Norton. Limited traffic on First Street that was not 
tour buses is something that might conceivably be the best 
public transportation of the kind so that you don't have more 
traffic, much more traffic than you have now could be 
conceivable, but one would have to see if that would in fact 
also be a lot more bus traffic. But I see what you are saying. 
There are a number of ways to do this.
    What I have in mind, though, Mr. Ayers is that you have 
many people who will not want to walk great distances, and that 
is something that has to be considered not only for the elderly 
or the disabled but for others as well.
    Mr. Ayers. We do understand that. As I think I mentioned 
earlier, as well as you, that this transportation and getting 
visitors to the front door has to be seamless and graceful and 
quick. We can't just drop people off six blocks away and say 
you are on your own. We do understand that and are actively 
working to include that.
    Ms. Norton. Well, fortunately, we have a panel following 
you that I think has some information to allay our concerns on 
that issue.
    I thank you both for the very informative testimony. I look 
forward to working with you, Mr. Ayers, on the public hearing 
on the transportation plan and continuing to work with you, Mr. 
Ungar. Thank you for being here.
    Mr. Ayers. Thank you.
    Ms. Norton. May I call the next panel?
    Chief Phillip Morse who is the Chief of Police for the 
United States Capitol Police and Emeka Moneme who is the 
Director of our own District of Columbia Department of 
Transportation. Mr. Nichols is here accompanying Chief Morse.
    Chief Morse, would you begin?

 TESTIMONY OF CHIEF PHILLIP D. MORSE, CHIEF OF POLICE, UNITED 
 STATES CAPITOL POLICE, WASHINGTON, D.C. ACCOMPANIED BY DANIEL 
   NICHOLS; EMEKA C. MONEME, DIRECTOR, DISTRICT OF COLUMBIA 
         DEPARTMENT OF TRANSPORTATION, WASHINGTON, DC.

    Chief Morse. Madam Chairwoman and members of the Committee, 
thank you for the opportunity to appear before the Committee 
today to discuss the planning and preparations United States 
Capitol Police has conducted in anticipation of the opening of 
the Capitol Visitors Center next year.
    In 1998, after Officer Jacob Chestnut and Detective John 
Gibson were fatally shot in the United States Capitol by an 
armed intruder, planning of the Capitol Visitors Center began 
in earnest. In fact, Madam Chairwoman, you were one of the 
first proponents to reinvigorate the concept of the visitors 
center when you introduced H.R. 962 in 1999.
    Since that time, the United States Capitol Police has 
worked in partnership with the Architect of the Capitol to help 
design the CVC in such a manner as to not only enhance and 
enrich the visitors' experience but also enhance the security 
of the United States Capitol. As the construction of the 
facility progresses, it is clear that both goals will be 
achieved.
    The main advantage that the CVC presents from a security 
perspective is the ability for the United States Capitol Police 
to conduct security screening of visitors in a state of the art 
facility that was designed for that purpose. As we saw in 1998, 
the historic and ceremonial entrances of the Capitol were never 
intended to support the security screening that is necessary in 
today's threat environment. The opening of the CVC with its 
entryways, custom design to support security equipment, police 
officer positioning and technology to detect and contain 
threats, all in a seamless, welcoming environment, will serve 
to enhance the visitor experience while mitigating current and 
emerging threats.
    It should be noted that the U.S. Capitol Police is, in 
effect, staffing what equates to a new Federal building that 
has a high level security requirement to protect both the 
structure and the building occupants. This requirement was 
magnified in the aftermath of the September 11th, 2001 
terrorist attacks. We have conducted numerous studies to 
determine the requisite policing staffing that will provide 
optimum law enforcement and security services.
    We have also been working closely with the committees of 
jurisdiction on this issue. At present, based on the current 
hours of operation of the CVC and other operating assumptions 
of the facility, we submitted a detailed staffing and budget 
plan for consideration and approval. We are currently moving 
forward to fill those police positions.
    In addition, we are developing a training module for all 
U.S. Capitol Police personnel that will familiarize them with 
the facility, the life-safety systems and the emergency 
response plans. We are also in the process of integrating the 
emergency plans of the CVC with those already in place for the 
Capitol since the buildings are interconnected.
    While the CVC is designed to welcome visitors to the 
Capitol, its opening presents a significant logistical 
challenge of getting visitors to the main entrance. Prior to 
CVC construction and prior to 9/11, commercial tour buses used 
to offload and load visitors on the east side of the Capitol. 
In peak tourist season, scores of buses would crowd the streets 
throughout the Capitol Complex, causing congestion and impeding 
traffic flow.
    Following the 9/11 attacks, the U.S. Capitol Police took 
measures to prevent large trucks from coming into close 
proximity to the Capitol and the House and Senate office 
buildings. This was done to prevent the introduction of a large 
vehicle-borne improvised explosive device into that area and, 
if detonated, would result in significant loss of life, 
structural damage and disruption of the national legislative 
process.
    This week, in a measure aimed at enhancing security, plans 
were announced to also exclude commercial buses from select 
streets within the Capitol Complex. While we have a concern 
with large motorcoach type buses due to their load capacity, 
this policy will not affect public transit buses or sightseeing 
trolleys from continuing to traverse the major thoroughfares 
within the Capitol Complex.
    It should be noted that this decision was not made in 
isolation. As we were developing our security plans, we 
conferred with the Capitol Preservation Commission and other 
stakeholders so as they could begin exploring alternate methods 
of moving visitors from satellite locations to the CVC.
    The CPC is actively considering a number of options that 
will leverage infrastructure already available near the Capitol 
as well as public transportation or public transit vehicles. 
One such facility is Union Station which is an intermodal 
transportation hub that can support motorcoach parking. Talks 
are underway with city officials to explore integrating the 
Circulator bus system into the movement of people to and from 
the CVC.
    Once the CPC decides upon a workable plan that meets the 
security criteria and visitor transport needs, recommendations 
will be made to the committees of jurisdiction. We look forward 
to continuing to work with the CPC, various House and Senate 
committees and city officials as these plans are discussed and 
implemented. In the interim and even after the CVC opens, tour 
buses will be allowed to offload and load passengers on First 
Street located on the west side of the Capitol just as they 
have done for the past six years while the CVC has been under 
construction.
    Madam Chairwoman, we understand that bus traffic in the 
city does not just affect the Capitol Complex. United States 
Capitol Police has always been good neighbors to the 
surrounding community, and it is our desire not to displace 
problems into the local neighborhoods. Therefore, in order to 
offer a security and law enforcement point of view on this 
matter, we stand ready to work with the city officials and 
other concerned entities to develop a comprehensive bus 
management plan for the city that supports tourism and visitor 
experience while respecting the quality of life and 
environmental concerns of city residents.
    We have made great strides in improving security within the 
Capitol Complex while balancing the needs of the city, visitors 
and the Congress. The opening of the Capitol Visitors Center 
will mark the achievement of a long desired goal of creating a 
facility that welcomes visitors from across the Nation and 
around the world in a modern, safe and secure environment that 
complements the grandeur of the United States Capitol.
    That concludes my opening statement, and I would be happy 
to answer any questions you have, Madam Chairwoman.
    Ms. Norton. Thank you.
    Mr. Nichols, is there any statement that you wanted to 
make?
    Mr. Nichols. No, ma'am. Should you have any questions, I 
will be able to answer whatever you may be interested in. As 
always, it is a pleasure to be in front of you today.
    Ms. Norton. Thank you.
    Mr. Moneme?
    Mr. Moneme. Good morning, Chairwoman Norton and members of 
the Subcommittee.
    I am Emeka Moneme. I am the Director of the District of 
Columbia Department of Transportation or better known as DDOT. 
I thank you for the opportunity to share a number of the 
transportation options DDOT has been developing with others to 
serve the residents, workers and visitors of the District of 
Columbia.
    In particular, my brief remarks will focus on the 
Circulator bus service for visitors of the new Capitol Visitors 
Center or CVC and the District's vision for the Union Station 
intermodal transportation center which is currently being 
planned. I would like to run through a few of the short term 
action items that we have and some of our long term visions for 
the city.
    Certainly, millions of families, students, children, 
foreign and domestic tourists will flock to the CVC for many 
years to come. As the District of Columbia's primary agency for 
facilitating a safe and efficient movement of information, 
goods and people throughout the District, DDOT was compelled to 
begin conceptualizing transportation options for CVC visitors 
as the Fall of 2008 opening date comes near.
    After analyzing various possibilities, we concluded that 
the most feasible transit solution was the Circulator bus. As 
you are aware, the Circulator bus service was launched in 2005 
and is jointly managed and operated by DDOT and WMATA Metro. 
Partially funded by the District of Columbia, the Federal 
Government, contributions from local business associations and 
fare box revenue, it is really a model public-private 
partnership.
    Currently, the Circulator offers three routes: the 
Georgetown to Union Station route, the Convention Center to the 
Southwest Waterfront route and the Smithsonian National Gallery 
of Art loop which we also call the Mall loop. Circulator 
ridership has steadily increased since 2005. To date, the 
Circulator has served 3.5 million riders. Last month, our fleet 
served over 200,000 riders, a more than 10 percent increase 
over the May, 2006 ridership totals.
    Encouraged by this stellar record of service, DDOT has 
developed two new Circulator route options to serve the CVC. 
The first proposed route is really an extension of an existing 
Circulator route. Specifically, DDOT and its partners are 
planning an extension of the current Smithsonian National 
Gallery of Art loop. The existing route circles the National 
Mall on Constitution and Independence between Fourth Street 
Northwest and 17th Street Northwest.
    The extension will expand the present route eastward to 
encompass the U.S. Capitol along with a proposed stop at the 
main entrance of the CVC on First Street Northeast. This 
expansion would offer a convenient, seamless transit option for 
visitors to enjoy the CVC and the numerous sites and activities 
along the National Mall.
    The second proposed route, and I will direct you to the 
exhibit on the easel. The second proposed route DDOT is 
developing is a new Union Station-CVC-Navy Yard route that 
would also service the new CVC. This new route would substitute 
or augment the existing WMATA Metro Bus N22 route. The initial 
stop on this line from Union Station would be the CVC. As 
planned, this route would offer a direct, frequent, easily 
accessible transit link between Union Station and the CVC.
    We strongly believe that the success and effectiveness of 
this proposed route is contingent upon the reopening of First 
Street between Constitution Avenue and C Street, the portion of 
First Street that runs between the Russell and Dirksen Senate 
Office Buildings. As such, we look forward to continued 
dialogue with the U.S. Capitol Police and the Architect of the 
Capitol on this matter.
    As we anticipate an immediate, steady and extremely large 
number of visitors to the CVC upon its opening, I must stress 
the importance of implementing these proposed transportation 
solutions for the CVC visitors, particularly the transit 
services connecting the CVC and Union Station which serves as 
the District's primary intermodal transportation center.
    A recent Roll Call editorial highlights the need to further 
strategize about how we will handle tour bus traffic around the 
Capitol and facilitate the movement of visitors in and out of 
the CVC. By developing a number of transportation options, DDOT 
can reduce the need for tour bus traffic to travel in the 
vicinity of the U.S. Capitol Complex.
    Now, I would like to speak to some of the broader 
transportation solutions we would like for the consideration of 
the Committee. Although Union Station is a functioning 
transportation hub, it can become a more effective ITC or 
intermodal transportation center with upgrades to the existing 
facility as well as a potential expansion into the adjacent air 
rights. DDOT has been discussing and planning these upgrades 
for a number years.
    The ITC at Union Station will include improvements such as 
a new rail passenger concourse for commuter rail operations, 
upgrades to the Amtrak passenger concourse, new pedestrian 
connections between Union Station and H Street Northeast, 
integration of commercial bus lines such as Greyhound into the 
new ITC, expanded tour bus parking opportunities and an 
integrated streetcar connectivity into and through the Union 
Station site.
    Another potential transportation option for CVC visitors is 
a Union Station-CVC-Navy Yard corridor streetcar line. This 
streetcar line would complement Circulator service and could 
offer a direct transit link to the CVC for those traveling on 
the WMATA Metrorail. This service is only in the conceptual 
phase at this time, but DDOT plans to begins streetcar service 
in other parts of the District in 2008, in the Fall of 2008, 
and we would like to introduce this potential concept in this 
corridor.
    So let me end my remarks by highlighting a few critical 
points. The development of the Union Station ITC will have a 
significant impact on future Circulator service to the CVC. 
Tour bus parking accommodations, streetcar integration and 
convenient on and off boarding at Union Station will encourage 
utilization of the Circulator as a preferred transit option to 
the CVC.
    Again, I must mention the reopening of First Street between 
Constitution and C Street is crucial to the success of the 
planned Union Station-CVC-Navy Yard Circulator route and, for 
that matter, any direct connection to the CVC from Union 
Station.
    Third, continuous communication and coordination with the 
Architect of the Capitol and the U.S. Capitol Police is a must 
to ensure the smooth operation of transit services around the 
Capitol.
    Finally, securing operational and capital funding is always 
challenging, and additional funding is needed to implement 
these planned transit service to accommodate CVC visitors.
    In conclusion, I thank you for the opportunity to share 
DDOT's plans with you. We look forward to working with this 
Subcommittee, the Architect of the Capitol, the U.S. Capitol 
Police and others that are obviously interested in this matter. 
I welcome any questions you may have.
    Ms. Norton. Thank you very much, Mr. Moneme.
    Chief Morse, you have just heard Mr. Moneme, and he says on 
page three of his testimony that the success and effectiveness 
of the proposed route is contingent upon the reopening of First 
Street between Constitution Avenue and C Street that runs from 
Russell and Dirksen.
    Has maturation on how to secure buildings come to the point 
that we can at least have public buses run along that route 
just as public buses run along, behind and beside virtually 
every other public building in this city?
    Chief Morse. Yes. We believe that we can work with both the 
city and the jurisdictions of authority to make that 
recommendation and have that consideration for movement of 
people to the CVC. We would certainly work the group, the 
Capitol Preservation Commission, the city, the Architect of the 
Capitol, the Capitol Police Board, to make that recommendation 
and find a resolution to that.
    Ms. Norton. That is very, very good news. I do think that 
with the technology we now have and we are talking about a 
public bus, that that would be a giant step forward. It is a 
source of great concern about the impression that we can't 
protect the Capitol, that we close a major, one of the widest 
streets in the District of Columbia that was not closed for 
years afterward, and then when we got this red and yellow thing 
going, it was closed.
    I recognize. Even though I make fun of where we were and 
where we are, I recognize that everybody was learning then, and 
I very much appreciate the efforts being made now to revert to 
as much openness as is consistent with keeping this place 
absolutely secure.
    May I ask you, Chief Morse, I note improvements like the 
stationing of cars and actual policemen standing on 
Independence Avenue--you probably have them on Constitution as 
well--as opposed to checkpoints. Am I to take that to mean that 
you are to the point where you think that is sufficient rather 
than these checkpoints that held up traffic in the past? In the 
early days, I will call them.
    Chief Morse. We have been able to recently enhance our 
security operations regarding truck interdiction, and certainly 
we going to improve upon that with other larger vehicles like 
commercial bus traffic.
    We have been able, with technology and improvements with 
physical security, to be able to effect security without 
impeding upon the normal traffic flow. We are clearly able to 
identify threats in advance and take the appropriate action 
without impeding upon normal traffic flow.
    Ms. Norton. Do you think a facility at Union Station, Chief 
Morse, is critical to the security of the Capitol itself?
    Let me back up on that question. I indicated before that 
all along Congress had in mind that there would be an 
intermodal facility. You have heard Mr. Moneme describe both 
short term and long term plans.
    Let me just ask you both this question. Now, we know about 
Circulator, and I will have a question on the buses later. 
Whatever we do with the buses, where will they go now?
    Let us say the visitors center were to open on time. You 
leave the people off. I know the plans are being devised, but 
these buses do not then disappear into the air. You heard the 
testimony of the Architect that there may be a doubling of 
people coming. Some of them, if we are at all fortunate, will 
understand public transportation is the way to get here. But 
the buses are likely to come in far greater number.
    What will we do with the buses once you devise these 
wonderful plans for leaving people off when there is no 
facility now?
    I understand there is not any now. What will we do with no 
intermodal transportation facility for them to go now? What 
will we do with them now?
    Chief Morse. I think one of the things that was mentioned 
is the overall impact of buses throughout the city and how we 
can use the current transportation systems that are in place to 
alleviate that and make the connectivity. Union Station is a 
great intermodal hub. It has parking. It has shelter. It has 
amenities that other locations in the city also provide. So it 
is important as a part of this plan that we use the public 
transportation systems that are currently in place to alleviate 
some of the current heavy bus traffic.
    Ms. Norton. Chief, I am going to insist that you answer the 
question I put. The question I put is the practical question we 
all face.
    Yes, there will be use of public transportation. Mr. Moneme 
has talked about what the city is moving ahead to do. We know 
that there is a wonderful subway system. We also know, by the 
way, half of the people who come here, the 20 million visitors, 
are school children. Many are people brought on buses. I know 
that we have plans that the buses can come to First Street. I 
know that they can't come beyond the Botanical Garden area.
    I want to know what happens to them after that now and what 
will happen after that when there will be many more of them, 
not about public transportation. I understand that is the sane 
way to travel, but you can't do that if you are a kid, a school 
kid coming from Pennsylvania.
    So I want to know what happens to the buses. Maybe Mr. 
Nichols, Chief Nichols can tell us what happens to the buses 
now--that will give me some kind of clue--or maybe Mr. Moneme 
can tell me what happens to the buses now.
    Mr. Nichols. Well, your question actually drives to the 
heart of the problem. The problem is that there is no 
comprehensive plan and there hasn't been for years. What we 
have seen, and you are a resident of Capitol Hill. What we have 
seen is that the bus drivers and the bus companies are left to 
their own devices because there isn't a comprehensive facility 
that has been designated by the city.
    Ms. Norton. What that means--I thank you Mr. Nichols--is we 
just have to lay this out. Then it will make Congress want to 
find a solution.
    Mr. Nichols. Exactly, correct.
    Ms. Norton. If you go down by the wonderful Mall, nobody 
has the nerve to say to the buses, get out of here, because we 
don't have any place for them to get. So the Mall is lined with 
buses. Now, we are coming to a place where you have to say, get 
out of here, and a bus driver who has never been to D.C. has to 
figure out, well, where do I go?
    Mr. Nichols. Correct.
    Ms. Norton. If he dares come into the Capitol Hill 
neighborhood, he will get chased out physically.
    So now what are we going to do, I guess? What are we going 
to do?
    Mr. Moneme. Madam Chair, if I could, I think I could sum it 
up as the good, the bad and the ugly. I think the good 
situation is we have no more than six locations in the city 
where we have capacity for buses. A short, quick example is 
RFK. The buses can go to RFK.
    Ms. Norton. Are we using RFK, Mr. Moneme?
    Mr. Moneme. People are using it on occasion, not a lot of 
them, not enough of them.
    Ms. Norton. So there is no direction to go RFK.
    Mr. Moneme. Right.
    Ms. Norton. Why doesn't somebody tell somebody to go at 
least to those places rather than leaving people to get a 
tourist map and find where they are least likely to be chased?
    Mr. Moneme. Right. Well, I think the Chief was correct in 
terms of there is no structured plan or structured program as 
it relates to tour buses. We have locations where we encourage 
them to go, but there is nowhere that they are told to go 
there.
    As I was going through the list, the bad is that they do go 
on the Mall where they go places we don't want them. The ugly 
is they go into neighborhoods and they park on people's streets 
when people leave, and that is when I began to hear about it. 
So I think the points are well taken here.
    We have sites we can use in the interim, and we should get 
them there, but I think that the solution we do want to go to 
is one place that can comprehensively hold a majority of the 
buses.
    Mr. Nichols. I think the other advantage is that, as the 
Chief testified earlier, we want to be part of the solution 
here. I think everyone has stovepiped this issue in the past, 
Madam Chair, and now it is time to get beyond that.
    We have reached to DDOT, and we want to work with the other 
agencies that are affected by this. National Park Service 
certainly has an interest in this and so do the citizens 
associations. So it is a new day, and there is an answer out 
there. We need to find it. Likely, Union Station will be the 
answer.
    Ms. Norton. I spoke earlier about the need to have 
everybody in on security so people don't yell and scream to the 
police when the security plan is done and so that it is, in 
fact, balanced. You have at the table here, a very good and 
competent District official who is working on the same thing 
because this is another of those instances where you have 
synergy between the Federal Government and the District of 
Columbia.
    I have not discerned any group or anybody who is in charge 
of this matter. Because it involves both Federal matters and 
D.C. matters, I wonder if we could have discussions, perhaps 
after this hearing, about getting a similar group or committee 
of District officials and security officials here to meet 
regularly on these matters. The first thing I would ask you to 
do is right now, having nothing to do with the visitors center 
at the moment, to develop a plan.
    Mr. Moneme says that there are at least six locations where 
people go, but of course nobody knows that so they figure it 
out for themselves. That happens. That is not Mr. Moneme's 
fault. That happens because this is a joint Federal and D.C. 
matter, and of course there hasn't been oversight. So these 
things don't get out, and citizens complain, and then they are 
left with nobody in charge.
    If you, Mr. Morse, would meet with Mr. Moneme and within 30 
days if you would submit to me the names of a group that will 
take responsibility, joint responsibility for the 
transportation and bus issues that exist now, that will help us 
build into what we need when there is a visitors center and you 
have a much more challenging task. If you would get us that 
within 30 days, we are open to whatever you decide is the best 
way to do it.
    All we know is that certainly the actors have to be 
District of Columbia officials and Capitol Police. You may say 
there must also be other actors. So I am leaving that entirely 
to you. I am just asking that you get those names to us and 
that you meet and that the first thing you do is develop a plan 
for where the buses should go, recognizing that you may not 
have enough places now, but Mr. Moneme says there are at least 
six places to go, ways to inform bus companies.
    We know who the bus companies are who come here, and after 
a while the word gets around anyway. Ways to inform them by 
written materials, faxes, emails--there is a bus association 
that this member works with closely, for example, because of 
the District--so that we can say to people there are places to 
go and so that we can talk about places that are off limits, so 
it is not left to citizens. If you would do that, I think we 
would advance not only visitors center transportation but the 
existing transportation and security systems, problems we have 
now.
    Chief Morse. We will do that.
    Ms. Norton. Could I ask? The Capitol Police for good and 
sufficient reasons, was expanded very substantially after 9/11. 
Are there enough police on board to handle the new security 
requirements at the CVC?
    Chief Morse. Currently, we are filling those positions to 
handle that requirement. Currently, we do not have the numbers 
to do that, but the Congress has gracious given us the FTE to 
fill those positions, and we are currently and actively doing 
that.
    Ms. Norton. I looked for a huge increase. In fact, you were 
increased in ways that the poor Park Police, which a huge area 
to cover, didn't get. I am not here saying that should or not 
should not be. That is not anything I have any information on 
or business in.
    But you have not yet looked at whether or not there are 
sufficient police on staff now to cover the CVC or whether 
there will need to be added Capitol Police?
    Mr. Nichols. We did a staffing analysis based upon what we 
knew the requirements of the CVC were going to be, how many 
visitors were going to be coming in, how many entry and exit 
points we were going to have staff, and then just general 
security requirements. When we did that, we submitted that plan 
to our oversight and authorizing committees.
    We got the authorization to hire those officers. Obviously, 
that came with a funding requirement. We are just in the last 
string right now of bringing those officers on board so that we 
could be able to secure that facility.
    The interesting thing about the facility is it is going to 
welcome the visitors, but they are going to have the ability to 
linger there and enjoy the facility. So we have to have enough 
officers on board if we should have an emergency evacuation of 
the facility. We can safely either collectively protect 
everyone there or make sure they are safely evacuated out of 
that facility, and all of that was taken into our consideration 
for our hiring and staffing.
    Ms. Norton. That is good to hear.
    Mr. Moneme, how is the Circulator paid for now upon which 
you are going to be relying on rather heavily bringing people 
from Union Station and elsewhere to the new CVC?
    Mr. Moneme. The Circulator was structured initially to have 
a Federal contribution, a District contribution, fare box 
revenues, and then an association of business improvement 
districts in the city would contribute.
    Over the last couple of years, what we have seen is fare 
box revenue hasn't been as high as we anticipated, the Federal 
contributions have been pretty consistent over the last couple 
years, and we have not been able to see as much contribution 
from the business improvement districts. So the District has 
been paying the lion's share of the operations of the 
Circulator. Out of $6 million budget, we are coming up with a 
balance between $4 to $3 million, more than half of it.
    Ms. Norton. I was able to get an appropriation and have 
worked to get one every year. But I believe that you will need 
more buses, will you not?
    Mr. Moneme. That is correct.
    Ms. Norton. Could I ask you, Mr. Moneme, for the record, 
some of the issues I have raised with you in private. Can you 
guarantee me that we will have smaller buses rather than the 
great big Circulators?
    Mr. Moneme. I can, in fact. Actually, I believe we have an 
image of one of those smaller 30-foot buses with us. In fact, 
if you are on K Street later on this evening, one will be on 
display for your viewing pleasure.
    Ms. Norton. Well, thank you. My goodness, do you have a 
picture of such a bus here?
    Mr. Moneme. We do.
    Ms. Norton. I can't tell from looking at it about the size, 
but I will be on K Street to find out.
    The Circulator was a wonderful idea, but the District, 
again for good and sufficient reason, was looking to spend as 
little money as possible and the best word to say for it is I 
think they got these on sale. They are very large, and there 
are times when there are just very few people in them. It makes 
you wish for something I guess like that or for vans or 
something, not vans but the smaller buses.
    Are those about the size of the WMATA buses, the smaller 
WMATA buses?
    Mr. Moneme. Exactly, exactly. What we are going to find is 
that especially for events that will be happening at the 
ballpark area or really when you are looking for crush loads of 
ridership from Union Station to the CVC, we will need the 
bigger buses because they will be filled. But on off-peak hours 
or when we don't expect high ridership, I think the smaller bus 
will do just fine.
    Ms. Norton. Particularly considering that the Congress is 
extremely conscious these days about the destruction of the 
planet at our hands, anything you can do to save the emissions 
of C02 would be much appreciated.
    Let me ask you, are these buses even ordered?
    Mr. Moneme. They have not been. We are in the final stages 
of negotiation on those.
    Ms. Norton. Is anybody making hybrid buses?
    These are not buses that are going to go very fast. Some 
cities are in the forefront of doing what cities and the 
Congress, the Federal Government should be doing. We should be 
the ones coming forward with hybrid vehicles or ethanol 
vehicles. I don't like that so much because the cost of corn is 
going up but with alternative vehicles.
    Are you investigating the possibility the way New York is 
going to use hybrid cabs now that you are going to have to 
invest in a whole new set of vehicles, of using environmentally 
appropriate vehicles?
    Mr. Moneme. We are. As part of the District's contribution 
to WMATA Metro, every new bus that we are buying is essentially 
a clean fuel bus.
    Ms. Norton. What are you talking about in clean fuel?
    Mr. Moneme. Either CNG, compressed natural gas, or the 
hybrid electric buses.
    Ms. Norton. I think I could more easily and I would feel 
more comfortable asking for a contribution from the Federal 
Government if, in fact, we were invested in state of the art 
new hybrid or other alternative vehicles. I say hybrid because 
I don't know why we should be using gas at all.
    Mr. Moneme. Understood.
    Ms. Norton. If we are using it because you have got to get 
it. Even if it is clean, you have got to get it. We don't 
produce enough here. While the technology is not nearly as 
advanced as it would be if we would have started doing this 
when we should have. The technology is there, and New York is 
using it.
    So before you order anything, I would like to have a 
conversation with you.
    Mr. Moneme. Definitely, I would love to have that 
conversation.
    Ms. Norton. The price does not look to be a great deal more 
and when you consider the saving on gas, it seems to me that is 
the calculation that has to be made. What is the life of the 
vehicle? What would be the savings in gas from an alternative 
vehicle?
    Among the things that I would recommend that you do is to 
talk to New York because they look like they are moving ahead. 
There are some areas that are doing so. When we are buying 
anything new, it seems to me that that is something that the 
Congress ought to be looking at in any case.
    I also believe that this cost now has to be shared more 
than it is now shares. The Congress did its step-up, I think, 
in a very good way. I had a hard time getting the first 
appropriation. They didn't mind paying something for the buses. 
They did mind paying for the operations. Now, there is nothing 
to be said about the operations except when it comes to the 
Capitol Visitors Center. It does seem to be the case has been 
made there.
    I want to thank you very much. You have answered my 
questions. I have given you some homework, so I think I ought 
to let you go. Thank you very much for very helpful testimony.
    Mr. Nichols. Thanks. It was a pleasure.
    Mr. Moneme. Thank you.
    Chief Morse. Thank you, Madam Chair.
    Ms. Norton. I want to thank our two Capitol Police leaders 
especially for your extraordinary service. I do want to thank 
you for the men and women who serve our Capitol. They are 
always polite. They serve as long as you say they have to 
serve. I have nothing but the greatest respect for the risk 
they take and the service they give.
    I wish that the next time you have your--what do you call 
it when you call them together? Tell them that the 
Congresswoman put in the record not at a time when there is an 
emergency, not at time when somebody has been injured, but just 
in the ordinary way in which they operate, that they are the 
best of the best.
    Let me also say, Chief Morse, I noted that almost from the 
beginning, not from the very beginning, the Capitol Police made 
a decision that was different from the decisions that were made 
when they closed the streets or put the checkpoints. Since I am 
in the city seven days a week, when I come to the Capitol on 
Saturday or Sunday, I must come along Independence through the 
New Jersey Avenue entrance. There is no one at the other 
entrance. There, of course, is somebody always at the Capitol. 
There is no one at the D Street entrance. I compliment you.
    The reason that that occurs is because somebody, and this 
was before your service, Chief Morse--Mr. Nichols may have been 
here--did the kind of analysis that, as a member of the 
Homeland Security Committee, I can tell you we are now 
requiring the Homeland Security Administration to do, and that 
is what is the risk and what would be consequences. Somebody 
has figured out that al Qaeda does not like empty buildings, 
that there is not a single instance of the destruction of 
property where there were not always a lot of people to be 
destroyed in the process.
    And so, if you go to South Capitol Street, the traffic 
there, if you go to D Street, if you go to any entrance except 
the entrances to the Capitol and except the one entrance that 
you go to get to the Senate, there is nothing there. There are 
the blockades there, and of course you have police on duty who 
could get there and a lot of things would happen. But that is 
because we clearly have made the kind of calculations you have 
to make in an open society. You don't just want to have people 
sitting there to be sitting there without any sense of what the 
risk would be, what the consequences would be as if you 
couldn't do the kind of analysis.
    I would ask that that kind of analysis be used, the kind of 
analysis I see you using already on Independence Avenue, 
whenever the suggestion is made that maybe you ought to close 
down some part of the city.
    Again, thank you for service which is the most 
extraordinary service members of Congress could ask for. Thank 
you, gentlemen.
    Could I ask for the last panel?
    Chief Morse. Thank you, ma'am.
    Ms. Norton. I am pleased to welcome Marshall Purnell, who 
is President of the American Institute of Architects and he is 
himself an architect and Leslie Shepherd who is the Chief 
Architect of the General Services Administration.
    What we are trying to do here is, as Congress usually does, 
try to get something to compare with instead of living within 
the bubble of ourselves. So we are very pleased to have you 
both here.
    Could I ask Mr. Shepherd to testify first?

TESTIMONY OF MARSHALL E. PURNELL, FAIA, PRESIDENT, THE AMERICAN 
INSTITUTE OF ARCHITECTS, WASHINGTON, D.C.; LESLIE L. SHEPHERD, 
 CHIEF ARCHITECT, GENERAL SERVICES ADMINISTRATION, WASHINGTON, 
                              DC.

    Mr. Shepherd. Sure. Good morning, Chair Norton. I want to 
thank you for inviting me here today.
    I had sort of written my comments assuming I was following 
Mr. Purnell.
    Ms. Norton. If you prefer that. I just do that because you 
are public official, but I would be glad to have Mr. Purnell if 
you prefer that. It doesn't matter to us. Do you prefer that?
    Mr. Shepherd. I would prefer that. Thank you.
    Ms. Norton. All right. Mr. Purnell, you are up.
    Mr. Purnell. We are coordinated here.
    Madam Chairman and members of the Subcommittee, good 
morning. I am Marshall Purnell, President-elect of the American 
Institute of Architects and a resident of the District of 
Columbia. Parenthetically, I am architect for the new 
convention center, the Nationals baseball stadium and first 
phase of the intermodal parking facility at Union Station.
    I am honored to testify before you, Madam Chairman, and 
deeply appreciative of your steadfast commitment to improving 
the quality of life in the District of Columbia, a mission we 
have shared for many years.
    On behalf of AIA's 81,000 members and 281,000 Americans who 
work for architecture firms nationwide, I would like to thank 
you for inviting me to testify about what the AIA envisions as 
the future role and responsibilities of the Architect of the 
Capitol as they relate to both the Capitol Visitors Center and 
the rest of the Capitol Complex.
    As the Subcommittee knows, a congressional selection 
commission is interviewing candidates, one of whom the 
President will select to become the next Architect of the 
Capitol. This is a major decision as the next Architect will be 
in charge of the design and maintenance of the Capitol Complex 
for the next decade.
    When you consider the historic significance of this 
complex, its role as a physical symbol of our democracy and the 
important work that goes on here every day, it is clear that 
the next Architect of the Capitol must possess the skills to 
protect this great landmark and ensure the safety, security and 
health of thousands of people who work and visit here.
    Throughout its 200 year history, the U.S. Capitol has 
undergone major transformations to ensure that it meets the 
growing needs of Congress. At nearly every major stage of the 
Capitol's physical growth, a professional architect serving as 
the Architect of the Capitol led this effort, making sure our 
fledgling democracy had a suitable home.
    Today, the Capitol Complex must once again be transformed. 
Over the next 10 years, the Architect of the Capitol will be 
called upon to manage a nearly 15 million square foot campus, 
to oversee major renovations to the existing historic 
structures and to improve the working conditions for 
legislators and their staff. The next Architect will need to 
address post-9/11 security concerns, find ways to conserve 
energy and mitigate the effects of global warming, and install 
21st Century technology in 20th and 19th Century buildings. All 
this must take place while assuring that the business of 
America's legislature is not disrupted.
    These are challenges that demand complex and creative 
solutions, the kinds of challenges that professional architects 
overcome every day. As history has shown us, Congress finds 
those solutions when a professional architect is Architect of 
the Capitol.
    The Architect of the Capitol manages the entire Capitol 
Complex including the seven congressional office buildings, the 
Supreme Court, the Library of Congress and the National Botanic 
Gardens. The Architect is responsible for the safety, security, 
health and productivity of all occupants and the thousands of 
daily visitors to these national treasures. It would not be in 
the interest of the public or the taxpayers to entrust this 
responsibility to someone without the formal education, on the 
job training and practical experience of a licensed 
professional architect.
    Former Architect of the Capitol George White, a licensed 
architect himself, said it best in his letter to the commission 
members. Referring to the many duties of the Architect of the 
Capitol, Mr. White says, ``The various necessary 
characteristics and talents must be based on a foundation of 
architecture.''
    Mr. White led the design, construction and renovation of 
many of the Capitol Complex buildings in his nearly 25 years as 
Architect of the Capitol, so he knows what the job requires 
better than most anyone. I respectfully request permission to 
have Mr. White's letter entered into the record.
    The Architect of the Capitol must understand what it takes 
to maintain the integrity of these great buildings, their 
priceless artifacts and their place in the District's 
landscape. This often understated role of the Architect of the 
Capitol is clearly stated by the inclusion of the Architect of 
the Capitol as a member of a number of local planning bodies 
including the D.C. Zoning Commission and the National Capital 
Memorial Commission. He or she must be able to find solutions 
to the Capitol's challenges that work in tandem with the city's 
design and planning processes.
    Only a licensed architect has the specific certified 
knowledge base as well as the full experience and training to 
handle such an enormous responsibility, commanding respect as 
the most qualified person to decide how the Capitol Complex 
will evolve.
    Now, I am aware that the Federal law does not require the 
Architect of the Capitol to be an architect, but neither does 
our Supreme Court require its justices to be members of the 
bar. To appoint an Architect of the Capitol who is not a 
licensed architect is as troublesome as appointing a Supreme 
Court justice who has not passed the bar. It verges on insult 
to my 81,000 colleagues and negligence on the millions of 
Americans who trust and depend on the Architect of the Capitol 
to sustain and enhance the beauty, sanctity and security of our 
Nation's Capitol Complex.
    Licensing laws in all 54 United States jurisdictions 
disallow anyone to even call oneself an architect without 
completing licensure. This regulation ensures public safety 
across our Nation and in all its territories. To this same end, 
the Architect of the Capitol should be exactly that, an 
architect licensed, by definition.
    Thank you again for giving me the opportunity to appear 
before you today. I will be happy to address any questions from 
the Subcommittee.
    Ms. Norton. Thank you, Mr. Purnell.
    Mr. Shepherd?
    Mr. Shepherd. Now good afternoon, Chair Norton. My name is 
Leslie Shepherd. I am the Chief Architect of the General 
Services Administration, and I thank you for inviting me here 
today.
    I would like to comment on the statement by my esteemed AIA 
colleague, Marshall Purnell. I concur; the individual 
responsible for managing the Capitol Complex, the icon of 
democracy, must possess outstanding skills and leadership, 
managerial excellence and design excellence. Mr. Purnell has 
eloquently spoken on these three points.
    My desire is to amplify his testimony on areas of work from 
GSA. In particular, I would like to expand on two key areas 
within the broader context of design.
    As a preface to these remarks, I note that GSA has a 
different structure and focus than the Architect of the 
Capitol. We manage and oversee programs, policies and processes 
executed through our 11 regional offices. GSA's Chief Architect 
does not directly design, construct or manage specific 
facilities. That said, I am convinced that we have the 
experience that can further illuminate the talents needed to 
fulfill the responsibilities of the Architect of the Capitol.
    My first point under the broader category of design 
expertise would emphasize the importance of historic 
preservation. The Capitol, the Library of Congress, the Supreme 
Court and other facilities under the purview of the Architect 
of the Capitol are among our Nation's most precious landmarks 
designed over the past 200 plus years and shaped by history in 
a venue established by our Founding Fathers. Given this 
momentous context, as you know well, the Architect of the 
Capitol must be especially wise and sensitive in the areas of 
historic preservation.
    At GSA, we are steward of more than 400 historic buildings 
nationwide, including over 200 monumental public buildings, 
several of which are national historic landmarks. Our historic 
preservation architects make sure that we maintain the design 
integrity of these structures and, at the same time, we 
implement innovative modernization techniques that incorporate 
the latest technology and building systems.
    I have no doubt that the Architect of the Capitol must have 
a background with similar strengths. The individual should be a 
respected leader in the field with the expertise to speak 
authoritatively on challenging preservation issues, and in this 
regard I highlight that the Architect of the Capitol is a 
permanent member of the Advisory Council of Historic 
Preservation. The Architect of the Capitol must be able to make 
sound and insightful judgments to successfully balance 
contemporary needs and stewardship responsibilities.
    Then the second point is to address the subject of 
security. This is always a concern with public buildings. We 
want to protect and assure the safety of users and visitors. We 
want to protect the buildings themselves. We also want our 
public buildings to be open and welcoming, compelling symbols 
of our democratic system.
    At GSA, we invest significant energy and resources to 
delivering this balance. In addition, we are well aware that 
successfully addressing security in historic buildings is an 
even larger challenge. We have devised strategies for 
installing security without compromising the design or openness 
of our landmarks, including such measure as blast protection 
and mitigating the risk of progressive collapse while 
maintaining the original fabric of the structures under our 
stewardship.
    This too is a talent and expertise required by the 
Architect of the Capitol.
    In the Office of the Chief Architect, we have recently been 
reorganized into two components, the Office of the Chief 
Architect and the Office of Capital Construction Programs. The 
Chief Architect and Assistant Commissioner for Capital 
Construction work in partnership to ensure successful 
implementation of the Capitol design and construction program 
and related activities.
    The Chief Architect and Assistant Commissioner for Design 
and Construction Programs both report directly to the 
Commissioner of PBS, who has overall responsibility for the 
public building service.
    It is my personal opinion that any person occupying this 
position with the title, Architect of the Capitol, should also 
be a registered architect. The United States Capitol, being the 
foremost architectural icon of democracy and as such is best 
preserved and safeguarded by a highly qualified architect.
    Madam Chair, this concludes my statement. I would be 
pleased to answer any questions you may have.
    Ms. Norton. Well, as you are aware from the prior 
testimony, our major interest is not in the qualifications for 
the Architect of the Capitol. As such, we didn't think you 
could have a hearing of this kind without touching on this 
issue, and we recognize there has been some back and forth 
between the profession and others, and that has a lot to do 
with the changing nature and function, frankly, of the Capitol.
    When you add a space that is almost as much as we have here 
now, you have controversy about the structure people begin to 
ask, well, what kind of person. It is interesting, you both 
have testified that if you are going to be called the Architect 
of the Capitol, you should be an architect. That, of course, 
does not say that the person who is in charge of the building 
should be an architect. I don't know if you both are testifying 
to that effect as well.
    You can have an Architect of the Capitol who was in charge 
of what architects do, and that wouldn't necessarily be the 
person in charge of the Capitol structure.
    Mr. Purnell. You could have someone who was in management 
operations in terms of operating the facility, a facilities 
manager, but he should be working under the auspices of the 
Architect of the Capitol because the issues that come up are 
likely to be something that the Architect could address. That 
is a subset of what the architectural profession does.
    Ms. Norton. Yes, rather than the other way around, you say.
    Mr. Purnell. No, it doesn't work the other way around 
because facilities management is not necessarily he is not 
trained to handle the other issues that would come up.
    Ms. Norton. I am pulling your leg a little bit because most 
of the time in projects the project is not run by the architect 
and the architect is not the CEO of the project. You seem to be 
saying that the architect should be the CEO here if that is not 
the usual role he plays in construction.
    Mr. Purnell. You are right. In many instances, the 
architect is not running the project in terms of at the very 
top of the food chain, and every project doesn't necessarily 
run smoothly with or without that structure.
    But I am saying if the architect has been trained to 
understand what the roles of everybody involved are and should 
be and how everybody should play together, if you will. 
Engineers, facilities managers are not so trained. They are 
basically dealing with their particular discipline and what 
they understand to be the issues.
    Mr. Shepherd. I would also add if I could.
    Ms. Norton. Yes, Mr. Shepherd.
    Mr. Shepherd. In previous testimony, they spoke that the 
fire marshal for the Architect of the Capitol would be doing 
the occupancy acceptance. That is a little different than a 
normal city. The Federal buildings, we do the same thing at 
GSA. We have a fire marshal within GSA who does those 
inspections for fire/life-safety.
    The Architect is ultimately responsible for the fire/life-
safety and overall well-being. We don't generally have, in the 
District of Columbia, fire marshals wouldn't come in and do 
inspections. It would be the Architect of the Capitol.
    Ms. Norton. That has everything to do with jurisdiction. 
The Capitol is a jurisdiction of itself. You don't even have 
jurisdiction. The Federal Government doesn't even have 
jurisdiction over the Capitol the way it does over Federal 
agencies, and that is why the District of Columbia and 
everybody else can come in here because this is one of the 
branches of government.
    But I take your point nor am I suggesting. I think this 
takes a great deal of study, study that this Committee does not 
intend to give to this particular aspect of this subject but 
one that raises itself when you are considering the new 
facility.
    I note, Mr. Shepherd, that you are an architect.
    Mr. Shepherd. Yes.
    Ms. Norton. But your work would seem to have little to do 
with architecture or your training as an architect as such. 
Does your work have more, as much to do with management of this 
empire of real estate that you relate to?
    Mr. Shepherd. That kind of goes to the way we have been 
reorganized in our Office of the Chief Architect. I am more 
involved in design review and architectural review. The 
Assistant Commissioner for Capital Construction Programs is 
more involved in the review of construction documents, the 
bidding process, et cetera, but I am involved in the front end 
review of the budget up front and review of all design work and 
recommend each project for approval by the commission.
    Ms. Norton. So you are doing mostly work within the ambit 
of what we think of when we think of what architects do.
    Mr. Shepherd. Absolutely.
    Ms. Norton. Was Capital Construction under the GSA 
Architect before?
    Mr. Shepherd. Correct.
    Ms. Norton. Why was that moved? Why was that separated?
    Mr. Shepherd. Maybe it was a response. I was in this 
position for two years. In the job we have at GSA, we have 195 
active projects. Probably, I think about 60 of those are in 
design and the balance in construction. It is just the enormity 
of the workload.
    I think it has worked much better since we have reorganized 
a little, about six months. The Assistant Commissioner and I 
meet every single morning. We talk about every project 
together, but it is a collaboration and it takes the two of us 
to effectively deliver the program.
    Ms. Norton. What skills do each of you think the new 
appointee should have to operate the new visitors center, 
assuming we are talking now about the Architect of the Capitol? 
What skills do you think that either the Architect of the 
Capitol, whoever is appointed, should have to run this facility 
and this building?
    Mr. Purnell. I may speak first.
    I think the person should have some experience with really 
large gathering places or places of assembly, be it convention 
centers or places where there are sports venues, where there 
are always a number of people in attendance at any one time. To 
deal with potential issues of evacuation has been stated here, 
potential issues of security threats and then just the daily 
operations of a mixed use facility as this will be. You are 
having restaurants, shops for purchasing, in addition, meeting 
rooms and spaces. It is a space that is not too unlike a modern 
day convention center in terms of the complexity of the 
different venues that will be happening there at any given 
time.
    But I wanted to just add when you say what you typically 
think of an architect as doing. There are a number of 
architectural firms in this Country that have hundreds and even 
thousands of people with offices, multiple offices, as many as 
25, 26 offices in this Country and around the world and 
managing thousands of people.
    Ms. Norton. Yes, but that is like saying lawyers who run a 
law firm, but what you have described is not that. You 
described an architect in charge of a different kind of 
facility altogether.
    Mr. Purnell. Well, I think when you mention the CVC is one 
facility and it is a part of one complex. The Architect of the 
Capitol, which is what I am focusing on and not necessarily the 
person who is hired to run the CVC, admittedly, is a person 
that you need to have this convention experience, people 
gathering experience. That is not necessarily the Architect of 
the Capitol. That person should report to the Architect of the 
Capitol as I see it.
    Ms. Norton. Mr. Shepherd?
    Mr. Shepherd. I would concur. It is that word, operate. I 
think generally an Architect is going to have very little 
experience in the operation of a building. The majority aren't. 
But that function of reporting to the Architect, I think that 
Architect is then capable of making those broad decisions about 
appropriateness.
    Really, your goal is to protect this icon of the American 
Capitol, and I think the Architect is in the best position to 
help broker those kind of decisions that may need to be made as 
things change in the operation of the building.
    Ms. Norton. You both seem to believe an architect is 
important to be the Architect of the Capitol. I am taking Mr. 
Purnell's reference to lawyers.
    Mr. Shepherd. I would also add the Surgeon General. You 
would expect the Surgeon General to be a physician.
    Ms. Norton. You would. Yes, you would.
    Mr. Purnell rightly says that you don't have to pass the 
bar to be a lawyer. I wonder if anyone would say it would be 
nice to be lawyer, though, to be on the Supreme Court. You are 
saying that the person should be licensed architect, and you 
are saying that this lawyer should be a member of the bar.
    I wonder if we could get at least some understanding 
because again the notion of who reports to whom is not 
something that this Subcommittee is interested in or how the 
Architect of the Capitol notion should be done. The President 
gets to appoint that, and the House and the Senate do have some 
input into that.
    But the closest analogy I can think of, frankly, does come 
from my own profession of lawyers. The way we are trained is 
about the worst way to run something, and some of us never lose 
that, the way we are trained in due process, for example, Due 
process is about stopping things from happening, slowing things 
down. It is about process. The very word, process, tells you 
what the problem is.
    And so, lawyers can really bollux things up. It is very 
important to have a general counsel, but that is what he is. He 
advises you on the law.
    On the other hand, you would be surprised how many lawyers 
transform themselves into something else, managers. There are 
lawyers who run the world. Well, Secretary Rubin was in law 
school with me. He is not in a law firm. I am sure he may have 
spent this much time in a law firm, but he became the Treasurer 
of the United States and he was an investment banker.
    There are professions where people study this. They don't 
take to heart some of the worst aspects, if you want to move 
on, of the profession. In our case, it is get real stuck on 
process, in the case of lawyers. Often you will be reading 
somebody's vitae, who is running something, and you say I will 
be blessed if the person didn't go to law school.
    But what is important is that the person has I say 
transformed themselves. Lawyers can be big or they can be 
little. Transformed themselves so that these lawyers fit 
another mold and a mold that is not particularly related to the 
process that is involved in being a lawyer which is very 
plodding, not very much interested in moving quickly, not 
management-oriented.
    Can we agree? Let us assume--I am offering a hypothetical--
that the Architect of the Capitol is an architect. Can we 
assume that he should be such a transformative figure who, in 
fact, somehow has proven himself as a manager as well as a 
captain of his profession, Mr. Purnell?
    Mr. Purnell. I would consider that to be a given for this 
particular position.
    Architects, by the way, are trained to solve problems. We 
are not trained to just design buildings. We are trained to 
take ideas and thoughts and basically people's wishes and their 
problems and resolve them in such a way that we hand them 
something that says this is what your thoughts, your program, 
all the problems that we saw along the way. This is how it 
manifests itself into what you decided you wanted in terms of 
building a visitors center.
    We are taught that we are problem-solvers in our 
architectural education. Thomas Jefferson was an architect. He 
became President of the United States.
    Ms. Norton. The ultimate renaissance man, though, Mr. 
Purnell.
    Mr. Purnell. He was more than one thing, but he was also an 
architect.
    Ms. Norton. You could name about a dozen other things he 
was and the best of them, okay, but if you want to start there, 
that is fine.
    Mr. Purnell. He talked about transforming.
    Ms. Norton. Harness that kind of Architect of the Capitol.
    Mr. Purnell. But I consider myself a pretty good manager 
when asked to manage. I have managed a firm, and I have managed 
projects, the Convention Center project as one of the lead 
architects on that, working with a developer. The person who 
was charged with developing that project, his formal education 
was that of a Master's degree in architecture from Columbia 
University and myself. So I think that when asked to manage, I 
can manage. I don't see my architectural background limiting in 
any way, shape or form in that capacity.
    Managing the construction of a project is one of the most 
difficult things anyone will ever do. There are millions of 
decisions to be made on any building that have been done, 
whether it is the type of hinges used on the doors to where the 
security checkpoints are going to be. Every decision that is 
made is made by someone who is both designing and managing how 
people will use that building.
    Like I say, to accuse our whole profession and put our 
whole profession in one box is just unfortunate because just 
like the legal profession, I too know lawyers who have never 
set foot in a courtroom, that are managing many different 
businesses and practices be it in corporate America, private 
industry or just serving as public servants. So I don't think 
that architect in itself is something that should be looked at 
in a very narrow perspective.
    Ms. Norton. Mr. Shepherd?
    Mr. Shepherd. I agree with that.
    Ms. Norton. Remember my question was about whether or not 
you think that the Architect of the Capitol for this position 
today should have gone through the transformation such that he 
can manage a large enterprise like this.
    Mr. Shepherd. I absolutely believe that the person referred 
to and has the title, Architect of the Capitol, should be an 
architect. I think that almost goes without saying. That would 
be the public's expectation is that that person has formal 
training. They have that skill set. They know what to do.
    I was going to also add, I report to and the Assistant 
Commissioner for Capital Construction Programs reports to the 
Commissioner. The last three Commissioners of GSA, Bob Peck, 
Joe Moravec, David Winstead, also they are trained in design 
and construction. They have design and construction 
backgrounds. They know almost as much about design and 
construction and a lot of architects, not with formal 
background, but they are Commissioner of Public Building 
Service. They are not the Chief Architect of GSA.
    Ms. Norton. Well, I just think the fact that we have 
discussed hypotheticals here has been useful.
    Again, this Committee does not have any view on the 
question except that the Architect of the Capitol ought to be 
somebody who knows how to deal with this new facility and all 
of its component parts, but we certainly have no view on 
whether the person has to be an architect or not. I know that 
that is controversial, whether the job should be bifurcated, 
who should support, who should report to whom.
    We know for the record that there is a commission or 
committee who has been assigned the job to look at the skills 
that are necessary and to report to the deciding officials in 
the House and the Senate the kinds of names they think meet 
that skill set. We have every confidence that they will do that 
job with great confidence.
    But it is useful, it seems to me, for those of us concerned 
about the building itself, particularly those of us who live in 
the District of Columbia and I certainly appreciate the work 
that both of you have done in your respective capacities, and 
those of us on this Subcommittee who are interested even more 
so in transportation, security and access. Those are issues 
that inevitably intrude on the jurisdiction of the Architect of 
the Capitol, whoever is appointed.
    Thus, we have a interest in making sure, as I am sure will 
occur, that whoever gets to head this operation and whomever 
the President chooses upon the recommendation of the leaders of 
the Congress will be what we need for a 21st Century Architect 
of the Capitol, remembering that even Thomas Jefferson, Mr. 
Purnell, would probably have had to transform himself to be the 
Architect of the Capitol here today.
    I want to thank you both for the kind of perspectives you 
brought to the hearing. To hear from you, Mr. Purnell, who has 
done work managing large projects, who speaks also for the 
profession and to hear from you, Mr. Shepherd, also an 
architect who has worked in that capacity leading a huge real 
estate enterprise through the GSA, gives us the kind of 
perspective to understand what will be required and expected.
    Thank you very much and the hearing is adjourned.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5931.005
    
    [GRAPHIC] [TIFF OMITTED] T5931.006
    
    [GRAPHIC] [TIFF OMITTED] T5931.007
    
    [GRAPHIC] [TIFF OMITTED] T5931.008
    
    [GRAPHIC] [TIFF OMITTED] T5931.009
    
    [GRAPHIC] [TIFF OMITTED] T5931.010
    
    [GRAPHIC] [TIFF OMITTED] T5931.011
    
    [GRAPHIC] [TIFF OMITTED] T5931.012
    
    [GRAPHIC] [TIFF OMITTED] T5931.013
    
    [GRAPHIC] [TIFF OMITTED] T5931.014
    
    [GRAPHIC] [TIFF OMITTED] T5931.015
    
    [GRAPHIC] [TIFF OMITTED] T5931.016
    
    [GRAPHIC] [TIFF OMITTED] T5931.017
    
    [GRAPHIC] [TIFF OMITTED] T5931.018
    
    [GRAPHIC] [TIFF OMITTED] T5931.019
    
    [GRAPHIC] [TIFF OMITTED] T5931.020
    
    [GRAPHIC] [TIFF OMITTED] T5931.021
    
    [GRAPHIC] [TIFF OMITTED] T5931.022
    
    [GRAPHIC] [TIFF OMITTED] T5931.023
    
    [GRAPHIC] [TIFF OMITTED] T5931.024
    
    [GRAPHIC] [TIFF OMITTED] T5931.025
    
    [GRAPHIC] [TIFF OMITTED] T5931.026
    
    [GRAPHIC] [TIFF OMITTED] T5931.027
    
    [GRAPHIC] [TIFF OMITTED] T5931.028
    
    [GRAPHIC] [TIFF OMITTED] T5931.029
    
    [GRAPHIC] [TIFF OMITTED] T5931.030
    
    [GRAPHIC] [TIFF OMITTED] T5931.031
    
    [GRAPHIC] [TIFF OMITTED] T5931.032
    
    [GRAPHIC] [TIFF OMITTED] T5931.033
    
    [GRAPHIC] [TIFF OMITTED] T5931.034
    
    [GRAPHIC] [TIFF OMITTED] T5931.035
    
    [GRAPHIC] [TIFF OMITTED] T5931.036
    
    [GRAPHIC] [TIFF OMITTED] T5931.037
    
                                    

</pre></body></html>
